<html>
<title> - [H.A.S.C. No. 111-141] NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2011 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED ELEVENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]






                                     

                         [H.A.S.C. No. 111-141]
 
                                HEARING
                                   ON
                   NATIONAL DEFENSE AUTHORIZATION ACT
                          FOR FISCAL YEAR 2011

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

   BUDGET REQUESTS FROM THE U.S. SOUTHERN COMMAND AND U.S. NORTHERN 
                                COMMAND

                               __________

                              HEARING HELD

                             MARCH 18, 2010

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13



                  U.S. GOVERNMENT PRINTING OFFICE
58-174                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6007100f200315131408050c104e030f0d4e">[email&#160;protected]</a>  
                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                     One Hundred Eleventh Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          HOWARD P. ``BUCK'' McKEON, 
SOLOMON P. ORTIZ, Texas                  California
GENE TAYLOR, Mississippi             ROSCOE G. BARTLETT, Maryland
SILVESTRE REYES, Texas               MAC THORNBERRY, Texas
VIC SNYDER, Arkansas                 WALTER B. JONES, North Carolina
ADAM SMITH, Washington               W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          J. RANDY FORBES, Virginia
MIKE McINTYRE, North Carolina        JEFF MILLER, Florida
ROBERT A. BRADY, Pennsylvania        JOE WILSON, South Carolina
ROBERT ANDREWS, New Jersey           FRANK A. LoBIONDO, New Jersey
SUSAN A. DAVIS, California           ROB BISHOP, Utah
JAMES R. LANGEVIN, Rhode Island      MICHAEL TURNER, Ohio
RICK LARSEN, Washington              JOHN KLINE, Minnesota
JIM COOPER, Tennessee                MIKE ROGERS, Alabama
JIM MARSHALL, Georgia                TRENT FRANKS, Arizona
MADELEINE Z. BORDALLO, Guam          BILL SHUSTER, Pennsylvania
BRAD ELLSWORTH, Indiana              CATHY McMORRIS RODGERS, Washington
PATRICK J. MURPHY, Pennsylvania      K. MICHAEL CONAWAY, Texas
HANK JOHNSON, Georgia                DOUG LAMBORN, Colorado
CAROL SHEA-PORTER, New Hampshire     ROB WITTMAN, Virginia
JOE COURTNEY, Connecticut            MARY FALLIN, Oklahoma
DAVID LOEBSACK, Iowa                 DUNCAN HUNTER, California
JOE SESTAK, Pennsylvania             JOHN C. FLEMING, Louisiana
GABRIELLE GIFFORDS, Arizona          MIKE COFFMAN, Colorado
NIKI TSONGAS, Massachusetts          THOMAS J. ROONEY, Florida
GLENN NYE, Virginia                  TODD RUSSELL PLATTS, Pennsylvania
CHELLIE PINGREE, Maine
LARRY KISSELL, North Carolina
MARTIN HEINRICH, New Mexico
FRANK M. KRATOVIL, Jr., Maryland
BOBBY BRIGHT, Alabama
SCOTT MURPHY, New York
WILLIAM L. OWENS, New York
DAN BOREN, Oklahoma

                    Erin C. Conaton, Staff Director
                Eryn Robinson, Professional Staff Member
              Aileen Alexander, Professional Staff Member
                    Caterina Dutto, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Thursday, March 18, 2010, Fiscal Year 2011 National Defense 
  Authorization Act--Budget Requests from the U.S. Southern 
  Command and U.S. Northern Command..............................     1

Appendix:

Thursday, March 18, 2010.........................................    35
                              ----------                              

                        THURSDAY, MARCH 18, 2010
 FISCAL YEAR 2011 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUESTS 
        FROM THE U.S. SOUTHERN COMMAND AND U.S. NORTHERN COMMAND
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Ranking Member, Committee on Armed Services........     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Fraser, Gen. Douglas, USAF, Commander, U.S. Southern Command.....     6
Renuart, Gen. Victor E., Jr., USAF, Commander, North American 
  Aerospace Defense Command, U.S. Northern Command...............     4

                                APPENDIX

Prepared Statements:

    Fraser, Gen. Douglas M.......................................    82
    McKeon, Hon. Howard P. ``Buck''..............................    40
    Renuart, Gen. Victor E., Jr..................................    43
    Skelton, Hon. Ike............................................    39

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mrs. Davis...................................................   127
    Mr. McKeon...................................................   127

Questions Submitted by Members Post Hearing:

    Mr. Lamborn..................................................   132
    Mrs. McMorris Rodgers........................................   131
    Mr. Ortiz....................................................   131

 FISCAL YEAR 2011 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUESTS 
        FROM THE U.S. SOUTHERN COMMAND AND U.S. NORTHERN COMMAND

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Thursday, March 18, 2010.
    The committee met, pursuant to call, at 10:02 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Morning. Committee will come to order. And 
today's hearing is part of our annual series of posture 
hearings with combatant commanders. I am pleased to welcome 
General Renuart of the Northern Command [NORTHCOM] and the 
North American Aerospace Defense Command [NORAD]. And General 
Doug Fraser of the U.S. Southern Command [SOUTHCOM].
    We welcome you both. Let me express my gratitude and 
appreciation to all the service men and women whom you each 
command. They provide an invaluable service to our country, and 
we are certainly in their debt. We are fortunate to have the 
Northern Command and the Southern Command represented here 
today. In many respects these two commands share more than a 
common boundary.
    They take on many similar types of intractable challenges 
and work closely with our partners to provide our regions' 
security and stability. Recent events including the earthquake 
that devastated parts of Haiti, and drug cartel-related 
violence near our border in Mexico remind us of the many 
important varied missions of these commands.
    At today's hearing we will look forward to our witnesses' 
testimony on these missions, and issues that they face. 
Starting in the Northern Command area of responsibility we 
would like to hear from the general about what progress we are 
making in helping our Mexican neighbors combat narcosyndicates 
and border violence.
    I also look forward to hearing about how NORTHCOM is 
continuing to work to improve coordination with local, state, 
and federal authorities. We would also like to hear about how 
the recent quadrennial defense review recommendations will 
impact NORTHCOM. In particular please address recommendations 
for faster and more flexible consequent management forces and 
improved awareness in the Arctic region.
    Turning to the Southern Command, we would like to commend 
General Fraser and all those men and women in SOUTHCOM for 
their tremendous effort in Haiti in conjunction with Operation 
Unified Response. Under the command of SOUTHCOM, American 
military forces quickly responded to the urgent needs of the 
Haitian people and allowed them to immediately start the relief 
and recovery process after the devastating earthquake that 
struck their capital city at Port-au-Prince.
    SOUTHCOM played a critical role in the inter-agency effort 
in Haiti. I am very proud of all those involved. I am also 
interested to hear the General's thoughts on the future of 
Haiti and what SOUTHCOM's role and the requirements will be 
there.
    I continue to be very concerned about the flow of illegal 
narcotics from the South and Central America into our country 
as well as reports of increase in trafficking to Europe and the 
Middle East. We welcome any comments the General might have on 
those issues.
    In addition we would like to hear a frank assessment of the 
status of our relationship with militaries and governments in 
the SOUTHCOM region. That is important that we know that. 
Please address how the current state of our relationship 
impacts our ability to conduct counternarcotics and other 
operations in that area.
    More broadly speaking we would like to hear from both our 
witnesses today on ideas that you may have for improving your 
commands' ability to execute its missions. Once again we thank 
our witnesses for being here. We are proud of what you do. We 
look forward to hearing your comments today on answering our 
questions.
    Now I turn to my good friend, the Ranking Member, gentleman 
from California, Buck McKeon.
    [The prepared statement of Mr. Skelton can be found in the 
Appendix on page 39.]

 STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A REPRESENTATIVE 
  FROM CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. McKeon. Thank you, Mr. Chairman.
    Today we conclude our series of posture hearings with the 
commanders from U.S. Northern Command--NORTHCOM, and U.S. 
Southern Command--SOUTHCOM. I would like to welcome General 
Renuart and General Fraser. Gentlemen, you represent the best 
America has to offer and I thank you indeed for your service. 
And all of those behind you in uniform that are here with you.
    General Renuart, you have the dual responsibility of 
overseeing two commands, NORTHCOM and the North American Space 
Defense Command--NORAD. There are several issues within your 
AOR I hope that will be addressed today. But I would like to 
take this opportunity to focus on one of the most eminent 
national security challenges on our nation's doorstep--the 
narcocriminal enterprise operating in Mexico.
    As both the ranking member of this committee as well as a 
representative of Southern California, I am deeply concerned 
with the scourge of violence fueled by the ongoing battles 
among powerful cartels. The recent killings in Ciudad Juarez 
illustrate the danger and reach of the escalating drug war. 
Soon after he took office, President Obama honed in on this 
issue endorsing the Merida Initiative which was passed by 
Congress in 2008. But that interest seems to be flagging even 
though the violence is not.
    Mexico cannot win this war without America's help, and we 
cannot afford for Mexico to lose. From your perspective where 
and how should we build upon the momentum initiated by Merida 
and translate that effort into a lasting partnership? What role 
do you see NORTHCOM playing in terms of building the capacity 
of the Mexican military to counter the threats it faces?
    Turning to SOUTHCOM, General Fraser, first I must commend 
SOUTHCOM for its efforts to assist Haiti in its time of need. 
The success of Operation Unified Response speaks to the 
professionalism of your forces and to the command's efforts to 
enhance its inter-agency relationships. Your forces brought 
comfort and hope to a devastated people, and have helped to put 
Haiti back on a road to recovery.
    While our engagement in Latin America is often focused on 
disaster relief and humanitarian assistance, we must not forget 
that the region faces many pressures that make it vulnerable. 
Narcotrafficking continues to undermine regional stability and 
bring violence to the countries it touches. Authoritarian 
regimes seek to reduce U.S. influence and engagement in the 
region while other outside influences from terrorist financing 
groups to Iran seek to make further inroads.
    Given our commitments in other areas of the world, most 
notably the CENTCOM [United States Central Command] AOR [area 
of responsibility], I am concerned that we may not have the 
resources needed or the focus to appropriately engage our Latin 
American partners on a military level. And that security and 
stability in the region will suffer. How is SOUTHCOM addressing 
the region's many challenges, and where do you need our 
assistance?
    In closing let me take a moment to comment on the detention 
facility in Guantanamo Bay, Cuba. One issue related to the work 
of the joint task force that concerns me is how it manages the 
interaction between Gitmo detainees and their habeas lawyers. 
My understanding is that lawyers are prohibited from giving 
detainees information relating to military operations, 
intelligence, arrests, political news, and the names of U.S. 
government personnel. There have been reports in the press 
recently that some habeas lawyers have violated and continue to 
violate DOD procedures and possibly the law. I think these 
issues merit serious attention.
    Mr. Chairman, I ask that my entire statement be included 
for the record where I address other issues facing the 
combatant commands testifying here today. Once again I thank 
you for being here this morning, and I will look forward to 
your testimony.
    Yield back, Mr. Chairman.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 40.]
    The Chairman. Thank you. And without objection your 
prepared testimony will be placed in the record.
    We thank you gentlemen for being with us. General Renuart, 
you are on.

  STATEMENT OF GEN. VICTOR E. RENUART, JR., USAF, COMMANDER, 
NORTH AMERICAN AEROSPACE DEFENSE COMMAND, U.S. NORTHERN COMMAND

    General Renuart. Well thank you, Chairman Skelton, 
Congressman McKeon, members of the committee. Great to be with 
you this morning. I say that with a true smile on my face in 
that I am approaching 39 years of service to our nation, and my 
wife has said, ``It is time to do something different.''
    And so we will be retiring after I change command in this 
office here later this spring--early summer. And I must say I 
want to express my thanks while I may not have the opportunity 
to come before you again. I want to express my thanks to the 
committee for all the support you have provided to our two 
commands over the previous three years of my command. And 
certainly as we have grown and developed over the last few 
years.
    The safety of the nation is our paramount concern. And you 
share that with us every day. And we appreciate that quite a 
bit. It is good to have the opportunity to talk about the 
successes that our two commands have achieved over the past few 
years, and to talk about some of the challenges you mentioned 
today. Certainly the difficulty in Mexico. The integration with 
our state and federal partners as we look at events that may 
occur in the homeland. Discussing the QDR [Quadrennial Defense 
Review] and ballistic missile defense [BMD] and other issues. 
The Arctic and clearly how we and SOUTHCOM collaborate in 
combating narcocriminalism in this hemisphere.
    So these are all topics that I look forward to having a 
good discussion with you today. As I start it is important for 
me also to extend my thanks to the men and women who wear the 
cloth of our nation each day. They defend our homeland 
certainly in the battlefields far away from the United States. 
But they also defend our homeland every day here as a combined 
team of active Guard and Reserve military members ensuring that 
our families and our communities are safe and secure.
    In particular I would like to recognize the service of our 
enlisted personnel of each of our services, and recognize them 
through our senior enlisted leader at U.S. Northern Command and 
NORAD today.
    I am pleased to have Chief Master Sergeant Allen Usury here 
with me today. He is my senior enlisted leader. And of note, 
Chief Usury is the first National Guard senior enlisted leader 
selected for duty at U.S. Northern Command. And I looked at all 
of the competitors, and Allen clearly was head and shoulders 
above active Guard and Reservists who competed. So I am pleased 
to have him with me.
    Also great to share the table with my friend Doug Fraser. 
Over the past months our commands have partnered substantially 
across a broad spectrum of interest areas to our nation.
    First, in the fight against narcoterrorism and the drug 
trafficking organizations in our hemisphere. We have partnered 
substantially in a broad variety of areas. And whether that is 
sharing of intelligence information, combined operations in the 
Caribbean and in the Pacific, or collaborating with Mexico in 
order to make them more capable of countering the challenges 
that they have in their nation, SOUTHCOM and NORTHCOM truly 
have stood as partners. And so, it is a treat to be able to sit 
here and have the discussion today with Doug.
    We have also partnered to ensure that the U.S. efforts to 
support the victims in Haiti have been successful. And I am 
pleased to have been able to assist and partner with Doug's 
team in terms of planners and air operators and a number of 
other skill sets that we have provided in order to assist in 
that effort.
    Chairman, as you mentioned, our missions are twofold. One, 
the NORAD mission, a bi-command mission to ensure the air and 
space sovereignty and security, and the maritime sovereignty 
and security of our two nations is maintained.
    In our NORTHCOM role, to provide for U.S. forces to defend 
the homeland from a variety of external threats, as well as to 
support law enforcement as we defend ourselves against security 
concerns inside the borders of our country.
    We are careful to keep a line between both. We understand 
the Constitutional limitations of use of the military in the 
homeland. We also understand how the military can support our 
law enforcement and other federal partners in the homeland.
    Across a broad spectrum of missions, from air sovereignty, 
to maritime domain awareness, to homeland defense, to ballistic 
missile defense, to support to law enforcement, our team--and 
that is a team of over 60 agencies with this government--works 
every day hand in hand to ensure we can be successful.
    From warning to consequence management, that broad spectrum 
is in our job jar every day. And I will be pleased to answer 
the questions--those questions--with you as we get further into 
today's session.
    We work hard with each of those teammates. We have worked 
hard to develop and integrate planning system that does in fact 
incorporate state and local and federal agencies in a coherent 
process.
    And I think the examples of Hurricane Gustav and Ike, last 
year's floods in North Dakota, all give good examples of ways 
that we have been helpful and successful with, and at the same 
time, understanding the unique nature of each of the federal 
partners that we participate in any operation with.
    We have two great partners in our international portfolio 
and we are growing a third. Canada has the best and most 
capable partnership with the U.S. Navy of any nation in the 
world. They stand shoulder to shoulder with us in the 
battlefields of Afghanistan.
    But they also sail with us, fly with us, and stand with us 
in disaster response here in the northern hemisphere. The 
success of the Winter Olympics is a testament to certainly the 
Canadian approach to a great world event, but also underline 
that support of NORAD and support of NORTHCOM to our Canadian 
partners was a real model of bi-national cooperation.
    With Mexico, we continue to help grow their capacity. We 
will talk about that in some more detail, but I would tell you 
that our relationship with the government of Mexico and the 
military of Mexico is as good as it has ever been in history. 
We still have work to do, as do they, and we are continuing to 
work on that aggressively each day.
    Finally, as we grow our newest partners in the Bahamas, we 
are assisting in operations in the Bahamas and Turks and Caicos 
that have focused primarily on criminalism and countering drug 
trafficking. We work closely with NORTHCOM in that area as 
well, in addition to the team at JIATF-South [Joint Interagency 
Task Force South] and our Coast Guard.
    So across our area of focus we are engaged, we are 
continuing to improve, and we look forward to telling you that 
story today.
    Finally, I would like to close as I opened a little bit 
with 39 years-plus of service, I want to say thank you on the--
for the record--to my wife Jill and our sons Brian and Andrew, 
who have quietly, mostly, supported our career, the many moves.
    We will move out of our 28th household here at the end of 
this tenure. And I will tell you that truly I would not have 
been able to succeed without her great support. And so, I would 
like to publicly say thanks to her and to the military families 
of all of our servicemen around the world. They pay a price 
that is often untold, and we do appreciate that.
    Mr. Chairman, I look forward to answering your questions 
here this morning. Thank you very much.
    [The prepared statement of General Renuart can be found in 
the Appendix on page 43.]
    The Chairman. We thank you. And as your career draws to an 
end, we can say in a good old-fashioned Missouri, ya done good, 
General. So thank you.
    General Renuart. Thank you, Mr. Chairman.
    The Chairman. But we know you will run hard to the finish 
line.
    General Fraser, please.

    STATEMENT OF GEN. DOUGLAS FRASER, USAF, COMMANDER, U.S. 
                        SOUTHERN COMMAND

    General Fraser. Chairman Skelton, Congressman McKeon, and 
the distinguished members of the committee, I am honored to 
have this opportunity to appear before you today and provide my 
assessment of the United States Southern Command.
    It is also my great privilege to share this table with my 
good friend and mentor, General Gene Renuart. Our appearance 
together, as Gene mentioned, represents the close coordination, 
alignment, and relationship between our two commands. And I 
also want to congratulate him on almost 39 years of 
distinguished service to our Air Force and to our nation.
    Finally, I want to thank the members of this committee for 
your continued strong support of United States Southern 
Command, and of your outstanding soldiers, sailors, airmen, 
Marines, Coast Guardsmen, and civilian personnel it has been my 
privilege to lead and represent.
    I have personally seen these outstanding men and women in 
action during the United States response to the earthquake in 
Haiti. The devastation was tremendous. The U.S. response was 
swift, coordinated, and aggressive. Within 24 hours, elements 
of United States Southern Command, the United States Air Force, 
the United States Navy, the United States Army, as well as the 
United States Coast Guard were supporting relief efforts.
    Air Force and Army elements began surveying the 
international airport. A Navy P-3 aircraft conducted aerial 
reconnaissance, and an aircraft carrier and an amphibious group 
were ordered to make best possible speed to Haiti.
    Over the next 3 weeks, the military response to the relief 
effort grew to a peak of just over 22,000 personnel, supported 
by all of the combatant commands, including U.S. Transportation 
Command, U.S. Joint Forces Command, and every branch of our 
armed forces.
    Our forces dramatically expanded the Air Force capacity and 
opened the seaport to enable the vital flow of supplies. They 
distributed water, food, medical supplies, and provided 
critical medical care. They worked diligently to meet the 
immediate needs of the Haitian people.
    As relief capabilities of the government of Haiti, USAID 
[U.S. Agency for International Development], the United 
Nations, and NGOs [non-governmental organizations] have 
increased, and as relief needs of the people of Haiti have been 
met, we are transitioning many of our functions to these 
capable partners, and are conducting a deliberate conditions-
based drawdown of our forces.
    I think it is important though, Mr. Chairman, to state that 
we will stay very involved with Haiti in supporting U.S. 
government efforts, international efforts, to support for a 
long time. So this is a transition of forces to those forces 
that will be needed in the future as we continue to support the 
effort in Haiti.
    Less than 2 months after the catastrophe in Haiti, tragedy 
struck once again in the region, when an 8.8 magnitude 
earthquake shook Chile. Within a day of the earthquake we 
distributed imagery of the affected areas to the Chileans, and 
sent satellite phone. Additionally, we supplied Chile with 
transport aircraft, a field hospital, and a port survey team. 
We stand ready to provide further assistance if additional 
support is required.
    Beyond these two disasters, Southern Command continues to 
address other challenges in our area of responsibility. Illicit 
trafficking, narcoterrorism, gangs, and the potential for the 
spread of WMD [weapons of mass destruction] are the principle 
security threats within the region. The region remains very 
dynamic.
    Brazil continues its rapid emergence as a regional leader 
with global influence. Competing ideologies within the region 
are stressing democratic and human rights advances, and the 
increasing engagement of external players, such as China, Iran, 
and Russia, continue to broaden regional outlooks and 
positions.
    Addressing the challenges of our region requires a truly 
whole-of-government approach in which United States Southern 
Command plays a supporting role. To that end, we work not only 
to strengthen partner military capacity, but also to build 
important relationships throughout the region, foreign and 
domestic, military and civilian, public and private.
    One of the institutions providing critical support to our 
mission is the Western Hemisphere Institute for Security 
Cooperation. I want to thank this committee for your continued 
strong support of WHINSEC [Western Hemisphere Institute for 
Security Cooperation]. I also want to acknowledge my fellow 
board members, or board visitor members, some who sit on this 
committee, for your active involvement in overseeing WHINSEC's 
activities.
    As a customer of WHINSEC, I can attest that it is critical 
role to our security cooperation efforts, especially its focus 
on human rights, is essential. It is one more reason why our 
military-to-military relations throughout the region remain 
strong.
    Let me close by saying the tragedy in Haiti reminds us of 
the challenges we face in this region. The cooperation we have 
developed with our partners over the years, relationships built 
through enduring and consistent engagement, have paid big 
dividends in Haiti during Operation United Response.
    Thank you for your continued interest and your continued 
support in Southern Command.
    Mr. Chairman, I look forward to answering your questions.
    [The prepared statement of General Fraser can be found in 
the Appendix on page 82.]
    The Chairman. General Fraser, thank you very much.
    General Renuart, Mexico. Has the violence increased in the 
last year? What is the answer to the horrific violence and 
murders in Mexico, General?
    General Renuart. Mr. Chairman, the short answer is yes, the 
violence has increased. We see increased competition among drug 
trafficking organizations for--in my terms--market share, 
distribution network, and profit margin.
    And they have used violent means to attempt to achieve 
that. At the same time they use those same types of measures to 
intimidate local law enforcement and government officials.
    The government of Mexico is keenly aware of that increase, 
and in fact, has taken a series of steps to attempt to stop and 
then reduce that violence. Sadly, we saw here in just the last 
week three individuals killed in Mexico, in Juarez, three U.S. 
citizens associated with the American consulate there. And I 
think it continues to remind us that the drug trafficking 
organizations will be violent and we need to continue to do all 
that we can for Mexico to assist them.
    To your second question about is there a way forward, and I 
would mention a number of issues where the U.S. government is 
continuing to assist Mexico to grow capacity, as you may know, 
Secretary Clinton and Secretary Gates will lead a large 
delegation to Mexico next week. This will be the central point 
of discussions for them.
    But in the near term and over the last six months, U.S. 
Northern Command has been working very aggressively with the 
Mexican military and with the Mexican Federal Police to help 
them vet new candidates and to increase capacity by providing 
focused training to Mexican special forces units, who, in fact, 
are given the mission of going out and conducting some of the 
operations against drug trafficking organizations. A lot of 
work to do. There is not a fast solution in this process 
because in many ways Mexico has to rebuild the law enforcement 
and justice infrastructure in order to take on these 
organizations.
    And I think the important element here is persistent 
partnership. We need to continue to show the Mexicans that we 
are part of their team, that we support their efforts and that 
we will continue to assist them whether it is in equipment or 
training or in many cases teaching, allowing them to learn the 
lessons of our integrated operations in other parts of the 
world.
    The Chairman. Thank you. General Fraser, first, we 
compliment you and your team on your efforts in Haiti. It was 
very apparent from watching the news and also from briefings we 
have had. So thank you and be sure to thank all the----
    General, in your area of responsibility, are we gaining or 
losing influence as a country?
    General Fraser. Mr. Chairman, I think we are gaining and it 
is a relationship that I think we need to continue to pay a lot 
of attention to. And because I focus on that region, I 
obviously have a very specific interest in it. My concern is we 
look to it as--with the era of globalization, there are a lot 
of other factors that are now starting to come in and 
influence.
    And so the way that we have approached the region in the 
past I think needs to change as we look out into the future. 
And we need to continue to engage very robustly within the 
region to continue to build those partnerships. There was a 
Latino barometer survey done. It is a Chilean organization that 
shows the regard for the United States leadership. The United 
States has grown from 58 percent to 71 percent. That to me is a 
very good indicator of the engagement and the continued 
engagement and the representation that we have within our 
region.
    The Chairman. How are our relations with the country of 
Colombia progressing?
    General Fraser. Mr. Chairman, our relations with Colombia 
are very good and they continue to grow on a continual basis. 
There has been over the last 8 years since 2002 roughly $5.0 
billion of United States money invested in the fight to help 
and support Colombia in their fight against the FARC 
[Revolutionary Armed Forces of Colombia] as well as illicit 
trafficking. That continues to grow.
    The Colombians have a very successful effort continuing. 
They have been able to kill or detain 12 mid-level to senior 
FARC members this year. They have a very comprehensive 
consolidation plan to go out and continue to take over and 
solidify control within various regions and remove the illicit 
trafficking capability from their country. And more than that, 
they are starting to reach out. And working with the United 
States Northern Command, they have agreed to train some Mexican 
helicopter pilots in their facilities within Colombia.
    Within Haiti, we had great relations with the supplies that 
they have sent, with a field of medical capability that they 
sent and integrated very easily within our operation there. So 
overall, I see our relations with Colombia strong and I see 
them continuing to grow.
    The Chairman. Buck McKeon.
    Mr. McKeon. Thank you, Mr. Chairman. General Renuart, 
congratulations on your 39 years. As we visited the other day, 
we got a chance to talk about some of this and--very 
interesting, but when you mentioned this morning that you had 
had 28 residences, I started counting up the number we have had 
in our 47 years of marriage and we came to exactly half of 
that. And I know what the strain that put on my wife and I 
commend Jill for putting up with it, for being such a great 
support to you.
    As I stated earlier, I am deeply concerned with the levels 
and reach of the violence generated by the narcocriminals. I 
think the threat on our border requires a plan of strategic 
cooperation of finding areas where we can help Mexico fight 
back. Being from Southern California, we see some of the 
spillover. We have had it in my community. And so it is 
something that we are really concerned about.
    Last weekend, as it has been mentioned, two American 
citizens, an employee and an employee of the U.S. Consulate in 
Mexico were murdered. How do you see the threat of the 
narcocriminals in Mexico changing? And in addition to Merida, 
how does the NORTHCOM use 1206 to train and equip and 1000 for 
counternarcotics funding to build the capacity of our Mexican 
military partners?
    Congressman McKeon, we share that concern and as you know, 
that violence, while it may sporadically spill directly across 
the border, it certainly permeates our country in a number of 
cities as we see the increase in drug-related gang violence in 
cities across our country. So that distribution network is 
really the focus of these drug trafficking organizations. And 
they will be violent to try to expand their market share, if 
you will.
    Having said that, along the border, you are exactly 
correct. We do need to have an integrated process among all the 
partners and players. And as you know in Southern California, 
the Customs and Border Patrol host the Air and Maritime 
Operations Command and Control Center. We participate in that 
through our Joint Task Force North. We share a common air 
picture with them to continue to expand the information sharing 
that we have with the Mexicans and we are looking to continue 
to grow that.
    On the ground, in fact, in a week, I will host a meeting at 
our headquarters with the leaders of Customs and Border Patrol 
with the drug enforcement agencies, with the FBI [Federal 
Bureau of Investigation] and many others to talk about a more 
integrated strategy along our southwest border to both 
support--in other words, for DOD to provide support to law 
enforcement on the north side and coordinate that with the DOD 
support we provide to the Mexican military on the southern 
side.
    You may be aware we have twice yearly border commanders 
conference and in that conference, the Mexican district 
military commanders and our U.S. military commanders get 
together to help share common tactics, techniques and 
procedures and increasingly, now, to share intelligence. That 
effort will continue and continue aggressively.
    With respect to direct support to military in Mexico via a 
variety of different funding streams, certainly Merida and 
1206, the counternarcotics money, all provide us valuable 
resources. One of my concerns is, as you know, Merida was a 
term limited, if you will, set of money. We need to continue 
that effort beyond the terms of Merida. Both Secretary Gates 
and Secretary Clinton are very supportive of that. We would 
request the help of Congress obviously as we move forward, but 
these things provide invaluable tools to Mexico.
    Their challenge is the fusion of intelligence and the 
agility to move highly qualified teams from one target, if you 
will, to another to be able to exploit the vulnerabilities that 
they may find with good fused intelligence. And so we have 
expanded our efforts in terms of training their special 
military teams, in terms of training on the integration of law 
enforcement and military in an operation much like we have done 
in Afghanistan and Iraq.
    Those avenues that provide funding that allow us to do that 
are critically important to us. And so is 1206, the CN money, 
sort of whatever the son of Merida may be in the coming years, 
because this really is an eight to ten year problem. It is not 
a one year solution that we can come up with. And while we 
regret the casualties, we have to continue to stay persistent 
in our partnership with Mexico.
    Mr. McKeon. Thank you very much. General Fraser, is the 
increased narcotrafficking violence in Mexico a direct result 
of positive gains in counterterror--counternarcotics efforts in 
Central and South America? What can SOUTHCOM do to assist 
Mexico and NORTHCOM's efforts especially given that many 
countries in your AOR are restricted from different types of 
assistance?
    General Fraser. Congressman McKeon, I think there is a 
result of the drug trafficking and that has influenced the 
concerns within Mexico. I see it as a much larger regional 
issue and I see it as a regional what we are terming an illicit 
trafficking enterprise. An illicit trafficking enterprise to 
include not only drugs, but trafficking and weapons and fund 
both cash as well as humans and other articles.
    And that network extends throughout Latin America and 
Central America. In through Mexico, the primary avenue right 
now of especially cocaine entering the United States is through 
the isthmus of Central America into Mexico and then into the 
United States. So there is a direct relationship out of there 
and we see some of the drug trafficking organizations, 
especially the Mexican drug trafficking organizations, now 
moving into the northern part of Central America. So that 
causes me concern also.
    You asked what we can do about it. We continue to engage 
with Colombia. We continue to support the efforts in Mexico 
with General Renuart. Our Joint Interagency Task Force South 
responsible for coordinating the detection and monitoring and 
the maritime domain is supporting that effort. It supports not 
only Southern Command, but Northern Command to Mexico on both 
coasts, the Caribbean and the Pacific. So that is a very 
integrated effort and works very well with all the nations in 
the region, if you will.
    We continue to support along with 1206 funding as General 
Renuart talked about to support capabilities in the maritime 
environments and continue to work with them on counternarcotics 
[CN]. And that is with each nation along the way. We are 
looking at how we build a broader strategy if you can that 
doesn't just look at it just nation by nation, but looks at us 
and how we can integrate our collective efforts to address the 
illicit trafficking issue.
    Mr. McKeon. Thank you. General Fraser, can you describe the 
procedures that JTF GITMO [Joint Task Force Guantanamo] has in 
place to manage the interaction between the habeas counsel and 
the GITMO detainees? Are you aware of instances where lawyers 
have given detainees information relating to military 
operations, intelligence, arrests, political news, and the 
names of U.S. government personnel? Is this still happening? 
And of yet what steps has the JTF GITMO taken to prevent this 
from happening?
    General Fraser. Thank you, congressman. The process for 
directing and the engagement between habeas counsel and 
detainees was prescribed under a protective order that was 
issued by the United States court--federal court here in the 
District of Columbia. They are the ones who have jurisdiction. 
And so it prescribes very specifically how we do that. We have 
a very specific procedure that I would like to put into the 
record to--to give you that more specifically on how that 
works. But let me describe briefly how that works.
    There was a protective--or a privilege team set up that is 
U.S.--or contractors who work for the federal court here in 
District of Columbia. They provide, and they monitor both the 
incoming and outgoing mail associated with habeas counselors, 
and their interaction with detainees.
    If a counselor wants to visit a detainee in Guantanamo, 
there is a very specific location where they meet. They are 
able to meet there. We monitor it visually either with someone 
watching, or someone watching on a videotape. But no audio 
associated with that. And that is primarily for security that 
we continue to watch visually. And so that is controlled under 
that means.
    Any messages that are--or letters, or correspondence that 
is left with a detainee is reviewed by that privilege team 
before it is sent to Haiti. And so that remains there. If a 
counselor wants to talk with a detainee, but not visit, then 
that is conducted first over a secure means if we can do that 
so that they can connect directly. If there is an insecure 
means there, then someone from that privilege team monitors 
that conversation.
    No one at JTF Guantanamo monitors any of the conversations 
between counsel and the detainees. And so briefly that is the 
way the process works.
    Mr. McKeon. When was that put into place?
    General Fraser. Congressman, I will have to get back to you 
with a specific date.
    [The information referred to can be found in the Appendix 
beginning on page 127.]
    Mr. McKeon. Okay. Thank you.
    General Fraser. But I have heard of a couple of instances 
of--where information was passed primarily on potential 
movement of detainees in the future. But that is the only--
between habeas counsel and--and the detainees, that is the only 
instances of concern that I am aware of. Any instance that the 
people at Guantanamo may be concerned about, they raise that up 
to DOD [Department of Defense], and we, in turn, turn that over 
to the Department of Justice [DOJ].
    Mr. McKeon. Thank you very much.
    Chairman.
    The Chairman. Thank you.
    Mr. McKeon. That is the first time we have had two fighter 
pilots sitting here together.
    The Chairman. And they do well.
    Mr. McKeon. They sure work together well. Thank you. Thank 
you, Mr. Chairman.
    The Chairman. Thank you, Mr. McKeon.
    Mr. Taylor yields to the gentleman from Georgia, Mr. 
Johnson.
    Mr. Johnson. Thank you, Mr. Chairman. And thank you, Mr. 
Chairman.
    And I want to say good morning to you, gentlemen.
    General Renuart, or Renuart, you have served admirably 
for--may as well just go on and say 40 years. And you are to be 
congratulated for the achievements, and--the personal 
achievements as well as the job that you have done for America 
and its citizens.
    General Renuart. Thank you, sir.
    Mr. Johnson. And we appreciate it. And you are leaving us 
with General Fraser who you have mentored throughout the time 
that you all have been together. I think that is such a special 
relationship to have. And I know that General Fraser will make 
sure that you do not forget him. He will be calling upon you 
from time to time perhaps.
    But I do want to ask this question, General Renuart. As far 
as the Arctic region, if there was a let's say a military 
vehicle that got stuck and the ice shifted, and it got stuck, 
and this happened tonight, how would we go about extracting our 
people and the equipment from the Arctic region?
    General Renuart. Congressman, that is actually a very good 
example of the kind of activity that we need to continue our 
momentum on within the Arctic region. All the scientific 
evidence tells us that there is increasing navigable water in 
the Arctic. But that can change literally overnight. We saw 
just in the last few months over 100 vessels stuck in the 
Baltic Sea where they were caught by a very rapid freeze.
    So this is a real concern in the Arctic region. Today if 
that had--if that occurred, I--the answer is we and the Coast 
Guard would partner with a rescue force. But today that rescue 
force would be primarily the ability to go in and extract the 
crew from that vessel, because we do not have the capabilities 
necessary for major ice breaking operations in the Arctic, nor 
do we have the vessels positioned in the Arctic that could 
provide a rescue vehicle for--with ice hardened hulls.
    And in fact, at the time Admiral Keating and I--he was the 
Pacific Command Commander--have written both to the secretary 
supporting the Coast Guard's desire to grow additional ice 
breaking equipment. And since then, other combatant commanders 
have added their support to that. That is a capability that is 
vitally important to the nation. So that you can in fact have 
the capacity to go in with a large vessel and in fact rescue or 
break free a ship that is caught in the ice.
    Last year there were a number of cruise ships that actually 
took advantage of the navigable portion of the year to transit 
in the Arctic. And clearly at some point one of those will 
encounter a difficulty whether it is stuck in ice, or a 
maintenance problem, or the like. And we have got to grow a 
capacity to conduct rescue of those kinds of forces in that 
very harsh region.
    So the Arctic is an area that has great promise, but it 
also is an area with great--that has great difficulty in day-
to-day operations. We partner both with our NORAD and our 
NORTHCOM teams with Canada on collective search and rescue. The 
other point I would make is that Canadians also have an ability 
to help in a rescue like that as well. And they will always 
come to our assistance should that be required.
    But the bottom line, sir, is we have got to grow capacity 
in the Arctic whether it is navigation, communication, or in 
fact rescue.
    Mr. Johnson. All right. Thank you, sir.
    And General Fraser, you mentioned Colombia--you mentioned 
FARC, a left-wing group, a terrorist group. There is also proof 
that there are right-wing terrorist groups that--the death 
squads. What kind of progress has been made in reigning in 
those organizations?
    General Fraser. Congressman, Colombia has actually made 
quite a bit of strides in reducing that. They have had an 
ability to--I can't think of the right word, but to bring those 
folks in and bring them--make them part of the society. And so 
they have actually been able to repatriate about 30,000 of 
those types of individuals as they have worked over many years 
to do that. And those efforts continue.
    Mr. Johnson. Including the right-wing militias?
    General Fraser. Yes, sir. That is where the focus has been. 
In militias. It also has been on the FARC. And so that is an 
effort that continues. One of the negative sides of what is 
happening is some of those individuals have chosen to take on 
criminal activity if you will and become parts of criminal 
gangs focused on illicit trafficking. So there is one area 
where they are transferring, and they haven't been successful 
in that effort.
    Mr. Johnson. Thank you both. And enjoy your retirement, 
General.
    The Chairman. I thank the gentleman. Before I call on Mr. 
Bartlett, let me ask. To your knowledge is help, aid, and 
assistance from Venezuela coming to the FARC in Colombia?
    General Fraser. Chairman, I am not sure I understood your 
question.
    The Chairman. There is a group known as FARC in----
    General Fraser. Yes, sir.
    The Chairman [continuing]. Colombia. Are they receiving 
help, aid, and assistance from anyone in or out of government 
in Venezuela?
    General Fraser. Congressman, we do see a--or Chairman, we 
do see a long-term relationship that exists between the 
Government of Venezuela, and the FARC. That has been evidenced 
if we go back and look at the computer records that came out of 
the Rafael Reyes detention--or capture of that computer. That 
continues on. There is safe haven. There is financial logistic 
support. There is safe haven for the FARC provided.
    And that--all the evidence I have says that continues. The 
evidence I have doesn't say that it--that I can explicitly say 
it is continuing. But I can't say it is explicitly not 
continuing. So based on the evidence up to date, I would say 
that that support still continues.
    The Chairman. Is the FARC getting smaller or larger?
    General Fraser. Over the time that plan Colombia has been 
in existence, the FARC has been reduced. They are about half 
the level that they were when Colombia relief focused their 
effort. Right now we estimate about 8,500 FARC members. So the 
fight is still very much there. The FARC has been pushed to a 
defensive role. They are changing their tactics, but they are 
still very active.
    Colombia had to take on a very active role in making sure 
they were not able to disrupt the recent congressional 
elections held. And the armed forces and the national police 
did a very good job of doing that.
    The Chairman. Mr. Bartlett.
    Mr. Bartlett. General Renuart, before Rumsfeld was the 
Secretary of Defense he chaired a commission study of the 
emerging ballistic missile threat. That study concluded the 
threat was real, was growing, and was far more imminent than we 
had anticipated. Our response to that has been a very 
aggressive development and deployment of anti-ballistic 
missiles. A major focus of that has been in the Arctic.
    I hope that that will never be used, because I think the 
only country that will ever launch over the pole today may be 
China tomorrow. But the only country ever to launch over the 
pole today will be Russia. And our meager defenses there would 
be almost immediately swamped by the shear numbers of the 
weapons that they could release.
    Other adversary--potential adversaries like Iran and North 
Korea may be evil. They are not idiots. And I think that there 
is a very small probability that they would ever launch from 
their homeland, because that launch would be detected. And they 
know that they would be almost immediately vaporized. And so if 
they attack us, sir, it is not going to be from their homeland. 
So we don't need to wait until they have a missile which will 
reach us.
    If they attack us, it is going to be from the sea. And so I 
have two questions. One is what is our capability of defending 
our coast from ship launched missiles? And by the way, with any 
trans steamer and a scud launcher which they can buy for about 
$100,000 and a crude nuclear weapon, they can attack us. That 
attack will almost certainly be where we are most vulnerable, 
which would be an EMP [electromagnetic pulse] attack. And if 
they miss their target by 100 miles, it is as good as hitting 
it dead on.
    Iran had a missile test which we said failed, because the 
thing was detonated in space. That is exactly how you would 
produce an EMP attack. So my second question is how much of 
your fighting capability would remain after the EMP attack, and 
what would be the situation in our country?
    General Renuart. Congressman Bartlett, let me take the 
second question first. You and I have had a discussion about 
two years ago actually as--with respect to Cheyenne Mountain on 
EMP issues. And I promised you at the time that we would 
continue to work this very aggressively. And I am pleased that 
we have been able to continue a very aggressive funding line to 
ensure not just the systems in Cheyenne Mountain, but the 
systems in our headquarters every day have the appropriate EMP 
protection against just this kind of event.
    Mr. Bartlett. Can you tell us, sir, at what level you are 
protecting? Is it 30, 50, or 100 kilovolts per meter?
    General Renuart. Congressman, I think I expressed ignorance 
back then of the specific number. And I am afraid if I gave you 
one I might not be telling you the truth. So let me--but I will 
get you the number back----
    [The information referred to is classified and retained in 
the committee files.]
    Mr. Bartlett. Appreciate that. Thank you.
    General Renuart [continuing]. If I could after the hearing 
for the record. But your point is very well taken. The threat 
is not the traditional threat that we saw during certainly 
those cold war days. And even today certainly the Russians and 
the Chinese maintain a substantial intercontinental range 
system that our missile defense system was not designed to 
protect us against. But rather those rogue nations.
    And I would say that that system is working very well 
against that very limited threat. But enemies that we have 
today don't necessarily follow the normal rule book. And so as 
you mentioned, one of my very real concerns is the ability of a 
nation state, or non-nation state actor to gain access to a 
lower tech missile that could be launched from somewhere off 
our shore.
    We have been working a number of programs to give us better 
situational awareness that that may occur. Not--in the areas of 
maritime domain awareness we partner with the Navy and the 
Coast Guard as well as our science and technology laboratories 
to create a better maritime domain awareness picture. So that 
today we have fielded a system that allows us to monitor the 
commercial shipping traffic as well as the military shipping 
around the world as it approaches our shores. And we could be 
made aware of a vessel well off our coast--hundreds of miles if 
not 1,000 miles off our coast.
    The next piece is what do you do about it? And there I have 
a concern in that our ability to detect what I will call cruise 
missiles or crude cruise missiles is limited to the existing 
radar systems that we have today.
    We are investing in numbers of follow-on technologies 
through a program called, ``Command and Control Gap Filler,'' 
which would combine certainly some fixed sites as well as over 
the horizon technologies which have proven relatively effective 
in certain areas against a cruise missile-sized target. To give 
us the sufficient warning that we could then take advantage of 
existing alert sites or others to try to provide us some 
defense.
    But this is an area we have concern, and we are continuing 
to work within the department to expand.
    Mr. Bartlett. Thank you.
    The Chairman. Thank the gentleman.
    Gentleman from Texas, Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman.
    And generals, thank you for your service and your 
leadership at a very pivotal time in our nation's history.
    General Renuart, the governor of Texas recently stated that 
he is concerned about imminent border violence spillover into 
the U.S. border. Yesterday, the two senators from Texas urged 
President Obama to act on spillover border violence. From your 
perspective as NORTHCOM commander, do you believe that there is 
an imminent threat of military--militarily significant violence 
spilling into the United States homeland?
    General Renuart. Congressman, I think we need to ensure 
that we are prepared if something like that were to occur. As 
the governor mentioned, there has been evidence of spillover 
violence, and that does occur, and I would say episodically. It 
is not a consistent series of events across all of the border. 
But it has happened some in California. Certainly some in 
Arizona, and as we have seen most recently in Juarez. But also 
along the south Texas border as well.
    Mr. Reyes. But, General, one of the things that concerns 
me, and I represent El Paso, which is the second safest city in 
the nation, right across from Juarez. I think we have to be 
very careful what we characterize as spillover violence. For 
instance, when you mentioned Arizona, some months ago they were 
reporting the kidnappings as a direct result of the ongoing 
violence in Mexico.
    It turned out to be that these were alien smuggling 
organizations--human----
    General Renuart. Yes.
    Mr. Reyes [continuing]. Smuggling organizations.
    General Renuart. Yes, sir.
    Mr. Reyes. Nothing to do with the cartels or the Mexican 
government's efforts. Part of the problem that we are seeing 
today is that perception becomes reality. When in effect what 
happened in Juarez this past weekend, which now is--we are 
being told may be a case of mistaken identity that those acts 
were taken in Juarez.
    But when the governor talks about his concern for imminent 
spillover, and he talks about activating some secret plan that 
he has to bring additional resources, that naturally raises the 
angst in people that live along the border that are very 
concerned. Even in the second safest city in the country people 
are calling my office wanting to know what is the governor's 
plan? Why is he activating it? And what is it that he knows 
that they don't know. And that I think is a disservice to 
border communities, because it tends to affect not just the 
people, but also the business community, the commerce, and the 
trade.
    So we need to be careful. And that is why I ask you that 
question. And secondly you--are you aware of the secret plan 
that Governor Perry has? And have you been briefed, because we 
haven't?
    General Renuart. Yes. Congressman, and you said it in much 
more eloquent terms than I would have. But the point I did want 
to make is we do have to be extremely careful about how we 
characterize actions south of the border, which in many cases 
are cartel on cartel violence, or intimidation tactics. And 
obviously to emphasize, and El Paso is a great example the very 
safe environment that we have in most of our cities.
    So I too am very careful in how we characterize anything 
that is described as spillover violence. Because I think the 
preponderance of evidence is that the violence is certainly 
there south of the border. But that actually our border 
security folks are doing a very good job of keeping that--and 
our law enforcement on the north side are working that as well, 
I think. And secondly, I am not aware of a secret plan. And so 
I have no idea what that may be referring to. Certainly the 
governor can use law enforcement National Guard to be involved 
in counternarcotics operations. But I know of no plan that 
would be sort of kept in a drawer that he might use.
    Mr. Reyes. But on the flip side Customs and Border 
Protection--the Northern Command--we all have contingency plans 
in case something happens, correct?
    General Renuart. Absolutely, sir. And in fact, most of 
those plans center around growing capacity with the Mexicans to 
help them deal with the problems on the south side of the 
border. And in fact we have a senior leader meeting on this 
topic in about two weeks' time at my headquarters.
    Mr. Reyes. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank the gentleman.
    Gentleman from California, Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman. Thank you, gentlemen, 
for your service, and for being here. I want to touch on 
WHINSEC for a minute. It is the Western Hemisphere Institution 
for Security Cooperation. As you all know, they use WHINSEC to 
train folks from other countries, and go back to those 
countries, and then help those countries deal with whether it 
is narcotics or narcoterrorism or other things.
    During the past couple of years an amendment has been 
offered to the House Defense Bill which would authorize 
publication of personal information of WHINSEC students. From 
your perspective, what would be the impact of releasing that 
information of those students that we have trained here to the 
international public?
    General Fraser. Congressman Hunter, let me take the first 
try at that. As you know, the Senate Armed Services Committee 
asked the Department of Defense to do an assessment of the 
release of names. That assessment is still working its way 
through the system.
    That said, while we are waiting for that, and I don't know 
the specifics of the response yet, but I don't support the 
release of names. We have a great relationship with WHINSEC 
with the partners there. It is not only partners with the U.S. 
and our partner nations, but with one another. And so, they 
return and they continue to engage with one another throughout 
the region.
    So my concerns are that we continue to have this capability 
available. That we continue to not only respect the rights and 
desires of the nations who provide those people, men and women, 
to those facilities, but we also look to make sure from a 
privacy standpoint we protect the U.S. citizens also, who are 
the instructors and the people who man that at WHINSEC.
    General Renuart. Congressman, if I could just add a couple 
points? First, we too are avid users of the WHINSEC 
capabilities and are very supportive, and I echo General 
Fraser's comments about the importance of maintaining the 
security of the individuals attending, as well as the faculty.
    And let me give you an example of what can happen when 
information is in fact released. You may recall recently the 
Mexican military, the navy in particular, was successful in the 
raid on Arturo Beltran Leyva.
    One of the naval individuals that was part of that raid was 
killed. And you might recall later that as his identity was 
made public--and this was not WHINSEC-related--just made that 
information public, his mother and wife and children were 
killed.
    We cannot afford to have the information that is held in 
WHINSEC released because it will have that kind of effect 
potentially for the individuals who are extremely valuable to 
us.
    And so, I echo Doug's comments that we need to be very 
careful about the release of that information, and we would 
oppose that.
    Mr. Hunter. Thank you, gentlemen. I concur with both of 
you.
    Lastly, just in the last minute and 30 seconds here, is 
there anything that we can do to enhance the DEA [Drug 
Enforcement Agency], the Coast Guard, you all, DOD, CBP 
[Customs and Border Protections], everybody working together, 
because I know in San Diego, for instance, we have the border 
fence there.
    It pushes stuff west, whether it is smugglers, criminals, 
gang members, terrorists, coming across the border. The ocean 
is now being used more than anything--excuse me--the Coast 
Guard talks about wanting more UAVs [unmanned aerial vehicles]. 
And you know, being DOD, you are the experts on it, they 
aren't.
    So, is there anything that we can do here to make 
everything work more seamlessly together between all the 
different agencies?
    General Fraser. I think, Congressman, that the Joint 
Interagency Task Force South provides us with a good model for 
how to do that. They are operating today with all the agencies 
that you mentioned, from DEA to CBP, as well as our partner 
nations. They have liaisons from 17 different partner nations 
who are also working this.
    So it is a great collaborative effort, who everyone 
understands their capabilities and their authorities and they 
work seamlessly to make sure they focus and continue on the 
mission.
    As we look more broadly than that, through the interdiction 
committee, and I think there is an opportunity that we expand 
that capability on a broadly, more national basis, if you will, 
to further integrate that capacity, not only at a tactical 
level, but at an operational level.
    General Renuart. And just very quickly, I know we are out 
of that time. I think supporting the existing budgets is 
certainly critical to that. And then finally, this concept of 
this national task force focused on integrating all of those 
efforts is an area with great merit, and we are working at both 
our commands, as well as each of the agencies you have 
described, through the interdiction committee. And I think that 
will be more ready for prime time in the coming months.
    Mr. Hunter. Thank you, gentlemen, for your service. Really 
appreciate it. Congratulations on your retirement.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    The gentlelady from California, Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And thank you both for being here and for your 
extraordinary service. We appreciate it.
    General Renuart, I know that there has been discussion 
about Mexico and the violence spilling over. I wonder if in 
your work with the Mexican government that there has been any 
concern as well that some of the civilian--you know,--that 
there is--will be a counterreaction I guess to overreach on the 
behalf of the Mexican Army?
    Is there any concern that human rights abuses or other 
abuses might impact the ability of the services? And how are we 
working on what is a very sensitive issue?
    General Renuart. This is actually a very real concern that 
the Mexican government has. They understand that the challenge 
that they placed their military in by using them in effect to 
replace law enforcement in the cities.
    General Galvan, their secretary of defense for the Army and 
Air Force, and I have had a specific discussion. He has asked 
us for our assistance in providing unique training on the 
integration of real operations and law enforcement and justice 
and human rights.
    And in fact, to Mr. Hunter's question a moment ago, WHINSEC 
is helping us create this team that we will then take to Mexico 
and provide very unique training to not just the schools, but 
to the units in the field on how they best integrate their 
operations with the rule of law and human rights.
    So I am very pleased at that progress. We will begin 
working that in earnest in the coming months. Having said that, 
it is very difficult for the Mexican military to be put in that 
law enforcement role for an extended period.
    And General Galvan has been working aggressively as the 
federal police has been essentially all removed and now rehired 
and vetted and trained. He is working aggressively to help them 
build capacity so that they can take on the appropriate roles 
in the cities.
    And in fact, in Juarez that transition has recently 
occurred and the federal police is taking more of a leadership 
role. So I think they are very sensitive to this issue. I think 
President Calderon clearly knows he has a limited type 
capability to affect things and he is using all the best way he 
can.
    Mrs. Davis. Thank you.
    General Fraser, and I am going to ask you a question we had 
an opportunity to speak about this briefly the other day, but 
on the dwell time for our men and women in uniform we know that 
they performed tremendously in Haiti and yet for some of them, 
that did take away some of their dwell time.
    So I am just wondering what we can do to really ensure 
those men and women have enough time at home before they go 
back on deployment. Is there anything that we should be doing 
or looking at in terms of helping them out, I guess not unlike 
we have done in other cases?
    General Fraser. Congresswoman, thank you for that question. 
And our men and women did a marvelous job and they responded 
very, very quickly. A lot of them who were not scheduled to 
sail, not scheduled to participate, to include the comfort 
that, and they sortied in very quick fashion to go help the 
people of Haiti.
    It has made it so that there are some of those individuals 
who will probably not get the full dwell time between, because 
they are--some of them more in prep for future transition or 
movement to ongoing efforts in Afghanistan and Iraq. Some of 
them had just come back.
    So the Department of Defense throughout the operation in 
Haiti has put a considerable focus on making sure we understand 
the limitations of that. And in all reality, there has been 
some impact to it, but it has been fairly minor impact, 
relatively minor, in all of that.
    What can we do to help? I think it is your continued focus 
on helping our men and women and supporting them. We will go 
back and look at specifically what you are looking at, because 
it could impact on us in other parts and other operations 
within Department of Defense. So let me take that back and we 
will get back to you.
    [The information referred to can be found in the Appendix 
beginning on page 127.]
    Mrs. Davis. Thank you. I appreciate that. What you are 
saying is that in fact there may be relatively few people 
affected, but that there may be other programs in which we are 
not able to open up some of these issues for them as well? Is 
that basically the concern that if you do it for this group, 
you might--you would run into a problem in other ways?
    General Fraser. No, ma'am. I think it is an issue that we 
are talking on worldwide. And there is a very concerted effort 
whenever this happens to make sure that we focus on the 
families of our deployed men and women.
    Mrs. Davis. Okay. Thank you very much.
    The Chairman. Thank the gentlelady.
    Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    And thank you both for your service.
    And General Renuart, I trust that you will retire in the 
state of Colorado and remain there as a good citizen of our 
state. Can I get your commitment on that? Okay, very good.
    My first question is, General Renuart, you said--talked 
about sharing intelligence with officials from the Mexican 
government. Is there a concern, and I have heard it expressed 
before, that some of that intelligence is being leaked to some 
of the cartels, and that is compromising our capability?
    General Renuart. Congressman, I think I am not so concerned 
that direct information is being leaked to the cartels. I think 
that one of the challenges of any kind of an operation that 
would target a high value individual or an organization, has 
the potential for some of that information to be leaked in the 
execution.
    In other words, operational security of that information, 
once you begin to act on it, becomes a challenge. And this is 
one of the areas that we are working very closely with our 
Mexican partners to share with them the lessons we have learned 
about operation security once you actually begin to find and 
fix a target to be able to take action.
    We have worked very hard in the broader intelligence-
sharing arena with both the Mexican Navy and the Army and Air 
Force to secure information in a way that it can be protected. 
So is there a risk? Absolutely. Have we seen instances? Yes, 
sir, we have. We have also seen the trend where the Mexican 
military understands the importance of operation security and 
has continued to work on that.
    Mr. Coffman. Thank you, General. And a follow-up question, 
the Merida Program, are you--is there a concern that some of 
the weapons--military weapons that we are giving to the Mexican 
military, Mexican security forces in general, that some of 
those soldiers or some of the police officers are walking with 
those weapons and join in the cartels?
    General Renuart. Sir, I would say no.
    Mr. Coffman. Okay.
    General Renuart. I have no concern with that.
    Mr. Coffman. Okay. Very well. To both of you, is there any 
evidence in--of some in the past to say Hezbollah has been 
engaged in the drug trafficking business to raise money for 
some of its operations in the Middle East? Are any of you--
either of you aware of that or any reports to that effect?
    General Fraser. Congressman, there have been within the 
Southern Command region. There had been some reports of 
Hezbollah is starting to get engaged within the illegal 
trafficking area. So I have that indication. We are looking for 
beyond that, but it is primarily right now a focus on logistics 
support, financial support to their apparent organizations in 
the Mideast.
    Mr. Coffman. Okay. And, General Fraser, to you as well, 
there have been media reports about Iran being involved in 
Nicaragua, I think, building a mosque or something, but 
sponsored by the Iranian government. Are you aware of that and 
to what extent is that a concern to you, if it is true?
    General Fraser. Congressman, Iran has been engaging on a 
political and a commercial level throughout much of Latin 
America. Over the last 3 to 4 years, they have increased the 
number of their embassies from seven to 11 going to another one 
this year. They have engaged very directly with Venezuela. They 
are also engaging consistently with Bolivia, Ecuador, 
Nicaragua, as you mentioned. Also with Brazil. So they are 
actually working across the region to engage in both a 
political and a commercial endeavor.
    Our concerns aren't just watching to understand what 
those--the relationships are and I don't see any evidence that 
they are beyond that right now, but we are very skeptical and 
watching very closely.
    Mr. Coffman. Very well. I think both of you to some 
degree--General Fraser mentioned the issue of Venezuela. How 
would you assess Venezuela right now as a destabilizing force 
in the region?
    General Fraser. Congressman, they continue to have a very 
anti-U.S. stance and look to try and restrict U.S. activity 
wherever they have the opportunity to do that. They are 
continuing to engage with the region, if you will, and 
continuing to pursue their socialism agenda. So that continues 
to be a concern. They remain a destabilizing force in the 
region.
    Mr. Coffman. Okay. General Renuart, in looking at our 
southern border with Mexico, is there any evidence that those 
other than seeking the status of being a laborer in this 
country, i.e., any Al Qaeda elements, any terrorist elements, 
is there any evidence that any of those folks are crossing our 
border?
    General Renuart. Congressman, right now, there is no 
evidence that they are crossing the border. In fact, it is 
something we work very closely with the Mexicans about to try 
to keep track of that. And so far, I would say not seeing any 
successful attempts.
    Mr. Coffman. Thank you, Mr. Chairman.
    The Chairman. Mr. Larsen of Washington.
    Mr. Larsen. Thank you, Mr. Chairman. Thank you, gentlemen, 
for coming today. I will start with General Renuart regarding 
page 16 of your testimony on the Olympics.
    I actually got to go to the hockey game that we won. A 
great time up there. But that week I was home, I also visited 
the Olympics Coordination Center in Bellingham, Washington, 
where for the--possibly for the first time brought together 
most, if not all, of federal, state and local and international 
agencies necessary to sort of take care of security on our side 
of the border. And you referenced that in your testimony with 
regards to some of the work you do with Canada.
    Can you though--can you give us perhaps maybe the top three 
lessons or the top three takeaways from that experience for 
NORTHCOM that are perhaps different than what you had going 
into this experience?
    General Renuart. Congressman, I would be happy to. And the 
biggest failure was the final game.
    Mr. Larsen. Absolutely. Absolutely.
    General Renuart. I predicted it terribly wrong and we came 
up on the other side.
    Mr. Larsen. I know. And there is nothing we could have done 
at NORTHCOM to fix that. And so----
    General Renuart. We tried.
    Mr. Larsen. I know.
    General Renuart. Congressman, I think--and very quickly, 
first, it was a success story beyond, I think, even what the 
planners had hoped. You mentioned the great interagency 
cooperation at the operation center there in Bellingham and 
that really did go from local all the way to federal and 
everybody that had a part to play.
    The same was true in Vancouver with the Vancouver Olympic 
Committee and the Integrated Security Unit, our partnership, 
NORAD and NORTHCOM, with the Royal Canadian Mounted Police, the 
Organizing Committee and the others were extraordinary. I think 
there were--there was a very positive result in that we found a 
way to integrate air and maritime operating pictures in a 
better fashion than we had been using thus far. And so we are 
going to adapt that model or adopt that model in our current 
operations for NORAD and NORTHCOM. And the key with that is it 
got the picture down to the local authorities at the same time 
we saw at the federal. So that was a very positive element. 
Second, the collaboration between the Navy and the Coast Guard 
in the Straits and the approaching areas was also a real model 
for success for the future. In terms of things we would like to 
do better, I believe the final piece would be we clearly were 
in a position to provide support to Canada should it have been 
required in a crisis.
    I think the procedural process of that, for example, moving 
quickly across the border, we have got to still work closer 
with our friends on both sides to ensure access in a crisis. 
And we are working a couple of projects with Canada Command, 
our NORTHCOM equivalent, to rapidly integrate the militaries of 
either country to support in a civil event or a disaster event 
is really the right way to describe it that occurred, but those 
are--frankly, that is in the noise level. That really was a 
successful event.
    Mr. Larsen. Yes. Yes. In my visits to the Coordination 
Center, I spoke with some of our Washington State National 
Guard folks and asked them what experience they were having. 
They actually ended up--it is kind of funny when you think 
about it because they actually ended up finding the phone 
number of the people at NSA or NGA to get the maps that they 
believed existed, but didn't know existed and it took this 
Coordination Center for them to connect with folks to find the 
people to call to get that stuff.
    I mean, as simple as that which now our National Guard will 
start utilizing that tool much more aggressively in the future 
for any number of things that they are doing. Also in your 
testimony--in your written testimony, you talk about seeing the 
counternarcotics side of things as well in reference to 
northern border. And I appreciate that. I appreciate the 
increase of attention.
    There is a lot of tension in the southwest border for 
obvious reasons, but Interstate 5 is not only a great pipeline 
for travel, for tourism, for trade, economic growth, it is also 
the number one pipeline for drugs that come out of Canada, 
sometimes originated in Canada, sometimes originated elsewhere 
and coming through Canada. And that partnership that we need 
with our Canadian partners is extremely important and I think 
there are lessons from the--on the CN side of things.
    Can you talk about that, the counternarcotics side of 
things on the border, northern border?
    General Renuart. Congressman, let me provide you some very 
specifics, but we have conducted two good exercises in 
Washington State, collaboration with both our U.S. law 
enforcement and Canadian law enforcement to help identify 
transit points and allow information so they can be 
interdicted.
    There is a great deal more to that. We are going to conduct 
that exercise again this year. In the interest of time, let me 
pass that to you and I will put that in the record as well, but 
I will get that back to you specifically for some opportunities 
that we had this year.
    [The information referred to is classified and retained in 
the committee files.]
    Mr. Larsen. I appreciate that. And Mr. Chairman, just 
quickly, these drugs wouldn't be coming into the U.S. from 
Canada if there was not a demand in the U.S. So I don't want to 
put this on our Canadian friends. There is a demand in the U.S. 
that we also need to take care of.
    General Renuart. Well, important to say that the flows are 
coming in from the sea into Canada as well. So this is not just 
a north to south issue.
    The Chairman. Thank you, gentlemen.
    Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman. And thank--and 
thank both of you for being here. Thank you for your service. 
General Renuart, I will especially thank you for your lifetime 
of service on behalf of my children, you know? People like you 
have held the line and you have given your whole life to the 
cause and thank you very, very much.
    General Renuart. Thank you very much, sir.
    Mr. Franks. General Renuart, I want to take off on a 
question that Mr. Bartlett posed earlier related to the 
potential homeland attack, EMP attack, I think that all of 
these challenges, of course, point to a very critical need to 
have the most robust layered missile defense capability that we 
can have. And NORTHCOM, I understand--you understand better 
than anyone--is trying to develop the global force management 
plan to address the Phased, Adaptive Approach.
    And, you know, we are certainly very hopeful that that will 
be successful. I guess my question is one of timing. I know 
that our offensive capabilities has not dissuaded people like 
North Korea or Iran from moving forward with their program, but 
I am hoping that that indicates to us that they value these 
programs so greatly that they are willing to take a great deal 
of risks in order to obtain them.
    And if our defensive capability were such that it would 
nullify or devalue their system that it might play into their 
calculus. That is the idea. So I guess my concern here about 
the approach is the timing. And so I guess my question to you 
is what is the timeline for the development of the global force 
management plan that addresses the Phased, Adaptive Approach 
not only to protect us against things that Mr. Bartlett 
mentioned, but I guess the host of other threats?
    General Renuart. Mr. Franks, I know you had General Chilton 
and Mr. Miller in front of the committee just in the last day 
or two. I saw their comments, and I guess I would say in terms 
of time line the unknown here is the speed at which a country 
like Iran for example may be accelerating its efforts. 
Certainly what we know is through the entirety of the Phased, 
Adaptive Approach we would expect to have that fully capable 
in--potentially in the year 2018.
    In the meantime, the existing ground basement course 
systems that we have I think provide us reasonable capability 
against any developing threat that may occur between now and 
then. I think importantly in all of this is that we continue to 
focus on an integrated air and missile defense capability for 
the nation. And that is an integration of sensors, many of 
which General Chilton owns, and shooters, many of which I own. 
And we are working aggressively to pull all of that.
    So we don't just think about homeland defense in terms of a 
missile, or an airplane, or a UAV, or a cruise missile, but 
rather we create the architecture that allows us to address all 
of that. And we are making good progress on that. And that is 
the area where the Congress always helps. Is that we continue 
the support for those programs and the funding lines that we 
see through the secretary's budget so that we can remain on 
track.
    Mr. Franks. Well, I guess that--you know, that makes a lot 
of sense. But it brings me to the question as far as the 
upgraded sensors, and the real time discrimination capability 
that I think is essentially included in your answer. What do 
you think the timing is on being able to implement those kinds 
of improvements that will----
    General Renuart. Sir, I think the sensor situational 
awareness is actually moving faster than some of the elements 
of the shooters. In the Phased, Adaptive Approach, the SM-3, 
Blocks 2-A/2-B are out in a few years showing great capability 
and potential. But still in development. Our sensor network is 
actually growing.
    As you may know, we will launch our first geosynchronous 
SBIRS vehicle this year. It had been delayed, but now the 
program is going on track. That will continue the investment in 
a very robust sensor package. C-2 BMC, which is the command and 
control system that allows us to integrate those sensors into 
coherent decision quality information is also now moving along 
nicely.
    So I am actually comfortable that the sensor piece is 
working. I am still focused on the cruise missile part of that 
sensor. And we are continuing to work with the department. And 
I think we have a way ahead, and I am not uncomfortable with 
the direction.
    Mr. Franks. Well, thank you. I guess I will leave this last 
question up to either one of you. I know that, you know, being 
a general it is going to be in your mind about the potentiality 
of a nuclear Iran. What if there is one thing that you could 
suggest would be critical to this country from your point of 
view--from the warfighter's point of view of preventing Iran 
from gaining that nuclear capability, what are we doing right? 
What are we doing wrong?
    General Renuart. Could I say we have three seconds left, 
and I will have to talk fast. Sir, I think the key is the 
aggregate pressure that we are putting on Iran through 
diplomatic, through military strength, through the partner 
nations that we have in the region, has to be continued. And 
that will hopefully dissuade Iran. Because I think they have 
got to change their strategic intentions. And I think that 
effort is really the focal point for us.
    The Chairman. Thank the gentleman.
    Ms. Bordallo, the gentlelady from Guam.
    Ms. Bordallo. Thank you very much, Mr. Chairman. I realize 
this is a little bit out of my jurisdiction. But I am assisting 
my colleague from Puerto Rico in asking this question.
    I have hopefully a simple and quick question for either 
General Renuart or General Fraser. As you know, a fiscal year 
2006 budget action by the Air Force programmed for the 
retirement of all 8 C-130s that are currently stationed at San 
Juan--Luis Munoz International Airport with the Puerto Rico Air 
National Guard.
    Now I understand that Puerto Rico is technically in 
Northern Command area of responsibility, but in many cases 
military units stationed in Puerto Rico assist with missions, 
humanitarian and otherwise, in Southern Command's area of 
responsibility. So I think we need to hear from both of you. 
First I would like to understand what type of operational 
impact the retirement of the C-130s in Puerto Rico will have to 
respond to humanitarian, natural disaster, or other matters in 
the Caribbean, Central and South American region?
    General Fraser. Ma'am, thank you for that question. We have 
along with the Puerto Rican National Guard--the C-130s. There 
is a set of four other C-130s--we call them ``Coronet Oak,'' 
that are provided as a ready capability to respond for an 
immediate need within the Southern Command region. And so those 
are the aircraft that we have on immediate recall basis if you 
will to respond to those issues.
    So those are being supplied broadly from the Air Force 
capability. So right now that is where we have. And so Puerto 
Rico's ability to contribute to that I think is really what 
will make a difference for Southern Command.
    Ms. Bordallo. And General.
    General Renuart. Congresswoman, I would like to just first 
say that the Puerto Rican Air National Guard did certainly 
provide great support during Haiti and flew a number of 
missions within the overall transportation system of--that is 
operated by U.S. TRANSCOM [Transportation Command].
    In terms of the specific Puerto Rican Air National Guard 
units, I think the chief of staff of the Air Force has made 
some necessary decisions as we recapitalize our units. And I 
think that for me and my AOR, and as you say Puerto Rico is in 
my area of responsibility, it is important that we maintain a 
capacity to move material around the region.
    But I have to defer to the Air Force to make decisions on 
specifically which units do that. I continue to maintain a 
requirement to provide some of that lift for a variety of 
reasons. So we will work closely both with the territory as 
well as the Air Force----
    Ms. Bordallo. Right.
    General Renuart [continuing]. On the in state there.
    Ms. Bordallo. I have a further part of that question. Now I 
have seen the proposed bed down of C-130s across the U.S. for 
fiscal year 2012. And without C-130s or some sort of air lift 
out of Puerto Rico I fear we have a dangerous capability gap in 
the Caribbean region. So I fear this will send the wrong signal 
to our partners in the Caribbean and Central and South American 
nations.
    Could you address the strategic importance of Puerto Rico 
in terms of our operational plans and capabilities for that 
region? And how important is Puerto Rico to your commands, and 
having the right assets to conduct missions?
    General Renuart. Ma'am, I would say Puerto Rico is actually 
a very strategic location for us. In fact if you look at the 
flow of illicit trafficking from south to north. As we put 
pressure in one particular area, the traffickers move to 
another. And certainly that area in the eastern Caribbean has 
been a flow route in varying volumes for quite some time. So in 
terms of its strategic importance, Puerto Rico offers a unique 
location. And in fact we have taken advantage of that to put 
surveillance radars and some other things that assist law 
enforcement in conducting those operations in that region.
    So for me it is a very important area.
    Ms. Bordallo. General Fraser.
    General Fraser. Ma'am, I agree. It is a very important 
area. Especially also because it is a partner within the 
Caribbean----
    Ms. Bordallo. All right.
    General Fraser [continuing]. Confines. And so it makes a 
big difference in our ability to interact with the Caribbean 
neighbors as well as our Latin American neighbors.
    Ms. Bordallo. Well I will pass this message over to the 
representative from Puerto Rico, Mr. Pierluisi.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much. I have--Mr. Wilson, Mr. 
Wilson, Mr. Taylor, Mr. Lamborn have not asked questions yet. 
And I believe the scheduled votes for 11:30 have been 
rescheduled for 12:30. So I think we are in pretty good shape 
to finish. Before I call Mr. Wilson, let me ask General Renuart 
concerning the wind turbines that are being erected in various 
places--and I think there is a field in the state of Missouri 
on that is being considered as well. Do you have a concern 
about the impact of wind turbines on radar in your AOR?
    General Renuart. Mr. Chairman, thank you for that question. 
Absolutely. I have real concerns. Having said that, I also 
recognize the real importance and value of alternate energy 
sources to our nation. And so we have begun a collaborative 
effort with the FAA, certainly the Department of Defense, 
Department of Transportation, Department of Interior, to 
provide assessment tools that developers may use to determine 
if their particular radar siting may have an affect.
    The science in this is that the turbines themselves have a 
very real effect on the radars. They distort the radars. In 
many cases block the picture, and put at risk the air safety--
the traffic safety of our--in our national airspace system, as 
well as create risk for the defense of our U.S.
    There are a number of sites around the country that have 
repositioned the physical siting in order to minimize the 
affect on our radars. There are some sites today that we have 
concern over. And we are working with those developers to try 
to mitigate the effects of these radars. But this is a very 
real concern.
    The Chairman. Thank you, sir.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And Generals, thank you very much for your service. And I 
want to thank both of you and your troops for what a 
difference--what was made for the people of Haiti. It was 
extraordinary. The American military was so successful in 
helping the people there. And I know I have a lot of 
constituents who have done volunteer work over the years in 
that country. And they just were so proud of the American 
military coming immediately to the rescue of the people of 
Haiti.
    So thank you so much. Additionally, General Fraser, I have 
a keen interest in the country of Colombia. I serve as the 
Honorary Chairman of the Partners of the Americas program. We 
are associated with the country of Colombia. And we have hosted 
students from Colombia at our home in high school. And then two 
of my sons have gone to high school in Colombia. A great ally 
and friend of the United States.
    Can you review further the current state of FARC in 
Colombia. And also is there current evidence between FARC and 
the government of Venezuela?
    General Fraser. Thank you, Congressman Wilson. Having grown 
up in Colombia, I also have an interest there as well. That 
said, Colombia and the support and their efforts to fight the 
FARC are continuing to be successful. This year, they have been 
able to kill or capture 12 mid-level, high-level, leaders 
within the FARC.
    They have a continuing effort to reduce the illicit 
trafficking and their consolidation plan is continuing to grow 
and foster. And that consolidation plan enables them to have 
the military go in, secure an area, then bring in other parts 
of the government to change the capacity there so the illicit 
trafficking and the FARC cannot reside there.
    I think the FARC is on the defensive. We are starting to 
see a change in the tactics, but they are still at about half 
the size and the level that they were previously. And so, the 
fight continues so I ask for your continued support of our 
efforts to support the Colombians as they continue that fight. 
It is an important fight.
    Mr. Wilson. And that is part of the success story of Plan 
Colombia. Can you bring us up to date further in regard to the 
counternarcotics efforts in addressing the production and 
transport of illegal narcotics in your AOR? And your plans for 
addressing illegal narcotics in the future?
    General Renuart. Yes, sir. Thank you, Congressman Wilson.
    Colombia has been successful in reducing the numbers. 
Especially in 2008, there was a 14 percent reduction in the 
amount of cocaine produced within Colombia. Those efforts 
continue. They have done and worked on manual eradication. They 
are also--and those efforts, although smaller this last year 
just because of budgets and capability, they have still 
remained successful, also.
    So that has--if you want to look at it on a regional 
basis--starting to have an impact more broadly. The 
traffickers, because there is resistance to the growing of 
cocaine within Colombia, are starting to look for other places. 
And they are starting to look at other places in Colombia, 
headed toward the northwest part of Colombia, but also into 
Peru and Bolivia.
    So we see the traffickers adjusting to successes that we 
are seeing within Colombia. I think we will that same as Mexico 
continues to pursue their efforts, and so the traffickers will 
adjust. We are working to build awareness across the region of 
that illicit trafficking enterprise, so that we can understand 
it better, and understand how to coordinate our efforts, 
government-to-government, military-to-military, law 
enforcement-to-law enforcement, to really put a pressure across 
the board on the illicit trafficking enterprise.
    Mr. Wilson. General Renuart, in 2008 your area of 
responsibility now includes some extraordinarily beautiful 
areas of the Caribbean. But as General Fraser was mentioning, 
narcoterrorism, trafficking, now is a threat in that area, too. 
So what is being done in your area?
    General Renuart. Congressman Wilson, this is a growth 
industry for us. As you mentioned, the Bahamas, Turks and 
Caicos, became part of our area of focus as well in that 2008 
timeframe.
    And candidly, I am also considering moving my headquarters 
there, because----
    Mr. Wilson. I would. BVI comes to mind.
    General Renuart. I am sorry, Congressman Lamborn, I am not 
going to do that, but we may have an alternate headquarters.
    I think that area is also a key transit area and we are 
continuing the efforts that NORTHCOM had been involved in, and 
expanding to include some modernization of facilities, 
expansion of the Royal Bahamian Defense Force capabilities, to 
allow them to address this in their region as well. They are a 
valued partner and we are growing that relationship.
    Mr. Wilson. Thank you.
    The Chairman. Thank the gentleman.
    The gentleman from Mississippi, Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman, and thank both of you 
gentlemen.
    General Fraser, I guess three questions. Number one, when 
Morales was elected the president of Bolivia, it is my 
understanding that his political party was actually called the 
Cocaleros, that a significant part of his platform would be 
reduced emphasis of coca in Bolivia. So I guess the follow-up 
to Mr. Wilson's question is, is it safe to assume that as 
cocaine production went down in Colombia, it increased 
dramatically in Bolivia? As it went down in Colombia?
    General Fraser. Congressman, I can't make a direct linkage. 
I do know that cocaine production has grown within Bolivia. It 
is now the third largest cocaine producer within Latin America, 
within South America.
    And that President Morales has expanded the legal amount of 
land available for the legal amount of growth of cocaine within 
Bolivia for indigenous use and their own internal use. So it 
has grown within Bolivia.
    Mr. Taylor. At some point could you have someone give me a 
follow-up on that? I know I am catching you cold on this. I 
should have given you some warning.
    General Fraser. Yes, sir, Congressman. I would be happy to 
do that.
    Mr. Taylor. Are there any missions, surface combatant 
missions, off in your AOR that the frigates in the fleet we 
have today cannot perform?
    General Fraser. Congressman, they are performing all those 
missions. In fact, we rely very heavily on not only the U.S. 
Navy, but the U.S. Coast Guard to provide us with that 
capacity. And so, it varies on a routine basis on what we are 
doing. We are working with the Navy to expand some of the 
capabilities to help us further that.
    The other thing that we are working with the Navy on is one 
of the things that will help us get more station time for the 
ships is to have oilers available. So it is not a capacity on 
the ships itself, it is the capacity of keeping those ships on 
station.
    Mr. Taylor. Well, my follow-up is I was looking at a study 
yesterday that because of the delay in the LCS [littoral combat 
ship] program, and because of the scheduled retirement of the 
frigates, that we are looking by 2015 at having something in 
the neighborhood of over a dozen fewer small service combatants 
than we have today.
    What does that do to your mission? And presumably most of 
the small service combatants are in your AOR, so what does that 
do? What gets done now that won't get done then?
    General Fraser. Congressman, our demand for surface 
capability runs at about 14 ships at a time. And that is to 
reach the goal of denying 40 percent of the traffic, if you 
will, cocaine, in the maritime domain. On a normal basis, we 
get eight of those ships. So it is a 14 to 8.
    So it will depend, as other demands on the Navy equate, how 
they resource us with those ships. Actually, the LCS ship, as 
you know, the USS Freedom, is in the SOUTHCOM region right now, 
and it has been doing very well. It has already had two 
successful interdictions of trafficking.
    Mr. Taylor. Again, the question was just looking at the 
numbers, if we don't extend the life of the frigates, then they 
go away, the LCS is way behind schedule, there is always the 
possibility that the loser in this competition protested, so we 
end up with a tanker-type situation, where years from now the 
LCS's are finally getting delivered.
    So again, given that scenario, the lack of those surface 
combatants, what do you lose in your AOR if they are not there?
    General Fraser. Congressman, I will lose some presence, as 
we have talked about. The number of ships that are available to 
conduct the mission. But depending on the need, that can be 
adjusted based on the needs of the Navy. And I use not only 
frigates, but there are Coast Guard ships who provide that 
capability, as well as destroyers. So it is a mix of capacity 
that we use to provide the mission assets.
    Mr. Taylor. Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank the gentleman from Mississippi.
    I have Mr. Lamborn and Mr. Johnson, and then we can wrap it 
up.
    Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    I want to thank both of you for your years of service, and 
Mr. Renuart, to you in particular I want to say I agree with 
Mike Coffman. I hope that you stay in Colorado after you 
retire. You will be missed.
    And most of all, I hope that you will continue to somehow 
lend your experience and your expertise to some kind of 
assistance as we go forward with our nation's defense. I am 
hoping those opportunities are available to you and I look 
forward to that as well.
    General Renuart. Thank you, sir.
    Mr. Lamborn. Let me bring up a topic, before I talk about 
missile defense, to something that we have had this 
conversation on before, and that is building two in Peterson. 
And as you know, there is strong local concern, and even some 
on this committee, about making sure that building two is 
sufficiently fortified and strengthened and hardened against 
any kind of incident or threat.
    Can you update us on where we stand with building two, and 
what has been done, and what may still need to be done?
    General Renuart. Yes, sir. Thanks. As you know, we have had 
a series of projects put in place over the last three years to 
grow that security capacity as we have transitioned some of the 
routine operations from Cheyenne Mountain into building two.
    That funding is all in place. The projects are ongoing. We 
have continued to grow additional physical, additional 
electronic barriers. We are in the process of completing a 
physical security modification to our building that will 
provide for biometrics as well as for physical security by 
armed security forces.
    Standoff to the building exceeds the standards that we 
would have for any high priority building, and I am very 
comfortable that as we complete these projects--in the next 
year and a half is about the timeline--that we will have a 
world-class facility that does have all of the security issues 
addressed that we have talked about in a variety of formats.
    I will just make one other point. And that is that in 
addition to making that particular building more secure, we are 
also discovering that--our mission growth and other things 
has--is allowing us the opportunity to reassess additional 
facilities.
    And so, we are in the process of a long-term study and 
investment study that will look at expanding the headquarters 
campus in a way that will allow us to absorb all of the 
missions that we have in a single area.
    And that is a more long-term issue, but I think that too 
will incorporate certainly all the security issues that we have 
discussed in previous meetings.
    Mr. Lamborn. Well, thank you very much. I look forward to 
continuing to work with you, and I know the committee does as 
well, and your successor, on these important issues.
    On missile defense, last year the administration made a 
decision to reduce the number of ground-based interceptors in 
Alaska and California from 44 projected to 30 because it 
concluded that the long-range threat was not materializing as 
rapidly as was once thought. However, since then we have seen 
an acceleration in developments and threats from North Korea 
and Iran that were not evident at the time.
    At what point, General, do you think that the department 
needs to reevaluate its previous reductions specifically from 
44 to 30 ground-based interceptors in light of changing 
threats?
    General Renuart. Congressman, you are correct. The day-to-
day operational deployed number of missiles was reduced down to 
30. I concurred with that based on the intelligence that we saw 
and the progress of some nations to develop a threat to the 
U.S. But I also asked the Secretary to hedge a bit if we saw 
increased growth or more rapid growth and he has done that in 
that we have an additional small number, but additional number 
of missiles, 10 that will be designed for tests and four that 
will be, what I will call operational reserve, that we could 
bring into the operational capabilities.
    And as you know, we are, in fact, continuing with the 
construction of Missile Field 2 up at Greely that will allow us 
to house those missiles should we need to do that. And I think 
that provides us a good hedge with potential acceleration in a 
particular threat and, of course, we also see the Phased, 
Adaptive Approach developing and hopefully the two will 
continue to show the progress and potential that they seem to 
have.
    Mr. Lamborn. Well, General, on testing, do you think that 
we have scheduled enough testing? Because I think that we were 
only planning two intercept tests of the two staged GBI over 
the next couple of years. Do we have enough tests scheduled and 
resources for testing including missiles?
    General Renuart. Yes, sir. I think the test program is 
rigorous and a good one. I think we do need to maintain 
flexibility to adjust the tests so that if we see an emerging 
threat we can accelerate some of those should that be required. 
We work very closely with the Missile Defense Agency on that 
particular issue.
    Mr. Lamborn. Thank you, General. Thank you, Mr. Chairman.
    The Chairman. Thank you, gentlemen. We have Mr. Johnson, 
Mr. Coffman with additional questions. Mr. Johnson.
    Mr. Johnson. Yes. Under the radar obstruction--well, with 
respect to that issue, radar systems are interfered with by 
wind turbines, General Renuart, as noted in the written 
materials. Private wind farm development could interfere with 
Department of Defense or NORAD surveillance networks or the 
network, if you will, and there is not anyway currently to know 
about a private development of wind turbine farms. And I know 
that some measures are being taken to kind of get out on--in 
front on that issue.
    Are there any federal--is there a federal permitting 
process that has to be followed by these wind farm developers 
or state or local regulations?
    General Renuart. Congressman Johnson, I think there is a 
federal program to cite these kinds of activities and there is 
a planning tool that is made available actually through the FAA 
where a developer can go onto that--into that planning tool, it 
is a Web-based tool, and essentially put their proposal into 
the tool and it will tell them whether there is risk or not of 
their citing affecting either the FAA or defense-related 
facilities.
    The challenge has been that the--it is not widely known by 
some that they need to go into that tool and start this 
process.
    Mr. Johnson. So it is not a mandatory rule?
    General Renuart. In fact, it is a recommendation from the 
National Wind Generation Association. That is not the correct 
term, but their industry association--to advise them that they 
should go into these. In some cases, developers have and, in 
fact, we have worked closely with some to reposition those 
sites, but I would hasten to say also that it is not just wind 
farms. In fact, we have had a couple of instances where the 
construction of a new resort hotel has impacted the field of 
view of one of our radars.
    And so this is an area that Secretary Lynn was asked in 
some testimony in front of the Senate a few days ago and he has 
directed the formation of an executive group within the Defense 
Department to partner with the FAA and the industry so that we 
can ensure that anyone who might be undertaking one of these 
projects knows how to go to get this information before they 
enter into contracts or expend money that might be put at risk.
    Mr. Johnson. Should it be mandatory that they do certain 
things, developers in general?
    General Renuart. Congressman, it makes sense to me to do 
that, but not being a legal expert on this, I am not sure what 
is in place for certain today and what might need to be 
amended. So I think I would have to defer an expert answer on 
that.
    Mr. Johnson. All right. Thank you, sir.
    The Chairman. Thank you, gentlemen. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman. And Mr. Johnson asked 
the questions that I was going to ask. I yield back.
    The Chairman. Thank you, gentlemen. If there is no further 
questioning, we wish to thank each of you for your excellent 
testimony, for your wonderful service. And General Renuart, we 
wish you well to the finish line. And General Fraser, we shall 
meet again.
    General Renuart. Thank you, Mr. Chairman.
    The Chairman. We are now adjourned.
    [Whereupon, at 11:55 a.m., the committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             March 18, 2010

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 18, 2010

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T8174.001
    
    [GRAPHIC] [TIFF OMITTED] T8174.002
    
    [GRAPHIC] [TIFF OMITTED] T8174.003
    
    [GRAPHIC] [TIFF OMITTED] T8174.004
    
    [GRAPHIC] [TIFF OMITTED] T8174.005
    
    [GRAPHIC] [TIFF OMITTED] T8174.006
    
    [GRAPHIC] [TIFF OMITTED] T8174.007
    
    [GRAPHIC] [TIFF OMITTED] T8174.008
    
    [GRAPHIC] [TIFF OMITTED] T8174.009
    
    [GRAPHIC] [TIFF OMITTED] T8174.010
    
    [GRAPHIC] [TIFF OMITTED] T8174.011
    
    [GRAPHIC] [TIFF OMITTED] T8174.012
    
    [GRAPHIC] [TIFF OMITTED] T8174.013
    
    [GRAPHIC] [TIFF OMITTED] T8174.014
    
    [GRAPHIC] [TIFF OMITTED] T8174.015
    
    [GRAPHIC] [TIFF OMITTED] T8174.016
    
    [GRAPHIC] [TIFF OMITTED] T8174.017
    
    [GRAPHIC] [TIFF OMITTED] T8174.018
    
    [GRAPHIC] [TIFF OMITTED] T8174.019
    
    [GRAPHIC] [TIFF OMITTED] T8174.020
    
    [GRAPHIC] [TIFF OMITTED] T8174.021
    
    [GRAPHIC] [TIFF OMITTED] T8174.022
    
    [GRAPHIC] [TIFF OMITTED] T8174.023
    
    [GRAPHIC] [TIFF OMITTED] T8174.024
    
    [GRAPHIC] [TIFF OMITTED] T8174.025
    
    [GRAPHIC] [TIFF OMITTED] T8174.026
    
    [GRAPHIC] [TIFF OMITTED] T8174.027
    
    [GRAPHIC] [TIFF OMITTED] T8174.028
    
    [GRAPHIC] [TIFF OMITTED] T8174.029
    
    [GRAPHIC] [TIFF OMITTED] T8174.030
    
    [GRAPHIC] [TIFF OMITTED] T8174.031
    
    [GRAPHIC] [TIFF OMITTED] T8174.032
    
    [GRAPHIC] [TIFF OMITTED] T8174.033
    
    [GRAPHIC] [TIFF OMITTED] T8174.034
    
    [GRAPHIC] [TIFF OMITTED] T8174.035
    
    [GRAPHIC] [TIFF OMITTED] T8174.036
    
    [GRAPHIC] [TIFF OMITTED] T8174.037
    
    [GRAPHIC] [TIFF OMITTED] T8174.038
    
    [GRAPHIC] [TIFF OMITTED] T8174.039
    
    [GRAPHIC] [TIFF OMITTED] T8174.040
    
    [GRAPHIC] [TIFF OMITTED] T8174.041
    
    [GRAPHIC] [TIFF OMITTED] T8174.042
    
    [GRAPHIC] [TIFF OMITTED] T8174.043
    
    [GRAPHIC] [TIFF OMITTED] T8174.044
    
    [GRAPHIC] [TIFF OMITTED] T8174.045
    
    [GRAPHIC] [TIFF OMITTED] T8174.046
    
    [GRAPHIC] [TIFF OMITTED] T8174.047
    
    [GRAPHIC] [TIFF OMITTED] T8174.048
    
    [GRAPHIC] [TIFF OMITTED] T8174.049
    
    [GRAPHIC] [TIFF OMITTED] T8174.050
    
    [GRAPHIC] [TIFF OMITTED] T8174.051
    
    [GRAPHIC] [TIFF OMITTED] T8174.052
    
    [GRAPHIC] [TIFF OMITTED] T8174.053
    
    [GRAPHIC] [TIFF OMITTED] T8174.054
    
    [GRAPHIC] [TIFF OMITTED] T8174.055
    
    [GRAPHIC] [TIFF OMITTED] T8174.056
    
    [GRAPHIC] [TIFF OMITTED] T8174.057
    
    [GRAPHIC] [TIFF OMITTED] T8174.058
    
    [GRAPHIC] [TIFF OMITTED] T8174.059
    
    [GRAPHIC] [TIFF OMITTED] T8174.060
    
    [GRAPHIC] [TIFF OMITTED] T8174.061
    
    [GRAPHIC] [TIFF OMITTED] T8174.062
    
    [GRAPHIC] [TIFF OMITTED] T8174.063
    
    [GRAPHIC] [TIFF OMITTED] T8174.064
    
    [GRAPHIC] [TIFF OMITTED] T8174.065
    
    [GRAPHIC] [TIFF OMITTED] T8174.066
    
    [GRAPHIC] [TIFF OMITTED] T8174.067
    
    [GRAPHIC] [TIFF OMITTED] T8174.068
    
    [GRAPHIC] [TIFF OMITTED] T8174.069
    
    [GRAPHIC] [TIFF OMITTED] T8174.070
    
    [GRAPHIC] [TIFF OMITTED] T8174.071
    
    [GRAPHIC] [TIFF OMITTED] T8174.072
    
    [GRAPHIC] [TIFF OMITTED] T8174.073
    
    [GRAPHIC] [TIFF OMITTED] T8174.074
    
    [GRAPHIC] [TIFF OMITTED] T8174.075
    
    [GRAPHIC] [TIFF OMITTED] T8174.076
    
    [GRAPHIC] [TIFF OMITTED] T8174.077
    
    [GRAPHIC] [TIFF OMITTED] T8174.078
    
    [GRAPHIC] [TIFF OMITTED] T8174.079
    
    [GRAPHIC] [TIFF OMITTED] T8174.080
    
    [GRAPHIC] [TIFF OMITTED] T8174.081
    
    [GRAPHIC] [TIFF OMITTED] T8174.082
    
    [GRAPHIC] [TIFF OMITTED] T8174.083
    
    [GRAPHIC] [TIFF OMITTED] T8174.084
    
    [GRAPHIC] [TIFF OMITTED] T8174.085
    
    [GRAPHIC] [TIFF OMITTED] T8174.086
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 18, 2010

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MR. MCKEON

    General Fraser. The interaction between ``habeas counsel'' and GTMO 
detainees is governed by a series of protective orders issued by the 
U.S. District Court for the District of Columbia, which has 
jurisdiction. The first such order was issued by Judge Joyce Hens Green 
on November 5, 2004. The order has been modified somewhat over the 
following years but remains essentially unchanged regarding habeas 
attorneys and GTMO. [See page 12.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MRS. DAVIS
    General Fraser. Congresswoman Davis, on January 19, 2007, the 
Secretary of Defense directed that a program be established to 
recognize members who are required to mobilize or deploy with a 
frequency beyond established rotation policy goals. In response to that 
direction, the Under Secretary of Defense provided policy direction on 
April 18, 2007, to establish a new category of administrative absence 
entitled ``Post-Deployment/Mobilization Respite Absence.'' This 
category of administrative absence was incorporated into the next 
scheduled DOD Instruction 1327.6, ``Leave and Liberty Procedures.'' 
This new program compensates or incentivizes individuals in both the 
active and Reserve components who are required to mobilize or deploy 
early or often, or to extend beyond the established rotation policy 
goals. [See page 21.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 18, 2010

=======================================================================

      
                    QUESTION SUBMITTED BY MR. ORTIZ

    Mr. Ortiz. In response to Chairman Skelton's question about the 
impact of wind turbines on radar systems, you mentioned that there are 
a number of sites in the United States that have raised concern for 
NORTHCOM. Would you please elaborate on these specific sites and what 
you are doing to mitigate these concerns? As far as collaboration 
between the various federal departments, are there any steps you feel 
that Congress can take to aid the interagency coordination?
    General Renuart. The specific sites are along the U.S. Southwest 
border and consist of both ground-based radars and Tethered Aerostat 
Radar Systems. NORAD's Air Defense and Air Sovereignty missions along 
with USNORTHCOM's Defense Support to Civil Authorities mission all have 
been impacted by both the nature of the environment along that border 
and man-made interference such as wind turbines.
    These affects are becoming more prevalent across the nation and in 
this case have created several areas where our ability to see air 
traffic along the border is degraded. Specifically, our radar at 
Oilton, TX has several wind energy projects that currently exist and 
others have been proposed within the radar's line-of-sight. This radar 
provides my command and the Department of Homeland Security (DHS) 
invaluable situational awareness, but should the development of wind 
energy continue in that area, the Oilton radar's capability will become 
less and less useful. DHS has partnered with NORAD and USNORTHCOM to 
find mitigation strategies in hopes that radars and wind turbines can 
coexist in the same areas.
    Currently, the Department of Defense (DOD) is a small part of a 
Federal Aviation Administration (FAA) process that was originally 
designed to review obstructions in and around airports. While NORAD and 
USNORTHCOM have a review responsibility as part of the FAA Part 77, 
Obstruction Evaluation Review/Airport and Airspace Analysis process, 
neither the Commands nor the FAA have sufficient authority to stop or 
prevent degradation to existing radars or other DOD resources as result 
of commercial ventures across the United States. Additionally, the 
current process lacks the ability to categorize the risks posed by 
commercial development along training routes, airport corridors, sea 
corridors, and in line-of-sight of existing surveillance radars.
    A possible solution may be legislation creating an interagency 
regulatory process to assess and mitigate the impact of wind turbine 
ventures on air navigation safety and national security. The governing 
body needs to include both interagency and business partners to help 
promote alternative solutions while limiting the impact of development 
on training routes, airports arrival and departure routes, ranges, sea 
lanes and surveillance radars.
                                 ______
                                 
              QUESTIONS SUBMITTED BY MRS. MCMORRIS RODGERS

    Mrs. McMorris Rodgers. General Fraser, what do you consider to be 
the greatest challenge within the USSOUTHCOM Area of Focus and does the 
Command have the necessary resources and personnel to accomplish its 
mission? Relatedly, I am concerned with Iran's intentions in the 
region. With Iran strengthening its ties to Latin America, including 
opening nearly a dozen new embassies in the region and expanding trade 
relationships with countries such as Cuba, Venezuela, Bolivia, and 
other left-wing governments, what is USSOUTHCOM's response with regards 
to Iran's spreading influence, and what would be the Command's role, if 
any, in this emerging security challenge? Thank you for your time, 
General Fraser.
    General Fraser. The confluence of money, power and the ability to 
breach the integrity of national borders makes the illicit trafficking 
problem a significant security challenge for nations throughout the 
Americas. Border insecurity, increased violence, public fear, 
corruption, weakening support for democratic institutions, and heavily 
burdened local, county and state agencies are the by-products of this 
illegitimate and criminal activity, which is estimated to cost 
legitimate economies more than $245 billion annually.
    Yes. Our funding is sufficient to enable us to both execute our 
Theater Campaign Plan and maintain us on the path to meet the strategic 
objectives outlined in our Command Strategy. With the current force 
level provided, USSOUTHCOM must prioritize deployments of personnel and 
equipment, but is able to meet goals for stated interdiction rates for 
counterdrug operations and build Partner Nation capabilities to respond 
to security challenges.
    In regards to Iran, we are closely monitoring the increased 
diplomatic and economic efforts in the region.
    Mrs. McMorris Rodgers. General Renuart, I have attached a letter 
dated March 2, 2010, from Ambassador Charles Ray to Lieutenant General 
P.K. Keen, Deputy Commander of United States Southern Command. In the 
letter, Ambassador Ray describes the creation and use of the first ever 
personnel recovery center authorized under the Chief of Mission during 
Ambassador Ray's post as Deputy Assistant Secretary of Defense for POW/
Missing Personnel Affairs. It is my understanding that this program has 
helped in aiding United States Southern Command in preventing and 
responding to search and rescue and humanitarian type of operations in 
South America. Given the extremely volatile situation in Mexico, what 
do you think about replicating this program within the United States 
Northern Command, including a center in Mexico City? Do you mind 
looking at Ambassador Ray's letter and letting me know if you believe 
this is a viable model to implement under USNORTHCOM in light of the 
increased violence targeting United States citizens in Mexico? Thank 
you for your time, General Renuart.
    General Renuart. I have reviewed Ambassador Ray's letter and concur 
that the principles that make the Colombia model so successful are 
applicable to the security challenges we have with Mexico. My staff 
assessed the utility of the USSOUTHCOM approach to Personnel Recovery; 
specifically, the Rescue Coordination Center in Colombia, and in light 
of the increased violence, we are confident that those tenets will 
apply to Mexico.
    We recognize that the key to success in developing a coordinated 
interagency Personnel Recovery Program in Mexico is the ability to 
understand how the variables in Personnel Recovery differ from Colombia 
to Mexico. Some of these variables include: in-country U.S. Government 
resources; level of host nation support and cooperation; and host 
nation recovery capability and capacity. Based on this understanding, 
we can then apply those principles to the unique circumstances of the 
situation in Mexico.
    Of course, this effort must be coordinated with all U.S. Government 
stakeholders, and to the greatest degree practicable, with Mexico as we 
develop an effective program with reciprocal benefit to both of our 
governments. Key to this effort will be coordination between USNORTHCOM 
and the Department of State personnel recovery office. Our initial 
challenge will be to construct a framework which effectively combines 
Title 10 and Title 22 authorities (as articulated in the Lugar Report 
to the Senate Committee on Foreign Relations) for the development and 
management of a Personnel Recovery Program under the authority of the 
Chief of Mission.
    We constantly strive to improve our relations with Mexico, and 
implementing a Personnel Recovery and Disaster Response Center would 
pay dividends to our relationship.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LAMBORN

    Mr. Lamborn. General Renuart, the Ground-based Midcourse Defense 
(GMD) system is expected to have a lifetime of 20 years. How many 
flight tests do you believe are necessary per year to ensure the long-
term reliability of the GMD system over its 20-year lifetime?
    General Renuart. At this time, it's unclear to me how many GBI 
flight tests are needed to ensure the long-term reliability of the GMD 
system. There are a variety of factors that need to be evaluated in 
determining the number of required missiles to flight test each year in 
order to assess the reliability rate of the fielded missiles. For 
example: the total number of missiles in the inventory, expected life 
of the missiles, differences between missile types (for instance, there 
are three basic types of Tomahawk missiles and each has a different 
number of test requirements per year), subcomponent testing for the 
rocket/motor, guidance system, attitude control system, warhead, fusing 
system, etc., and any possible problem areas identified through dud 
missiles or other failures not previously detected or anticipated.
    Additionally, cost is a major factor when determining the 
feasibility to execute the required number of tests. The Missile 
Defense Agency's (MDA) assistance is required to identify the 
applicable factors for the GBIs and the engineering analysis to 
determine the required number to test each year.
    Typically, the Services conduct reliability testing of operational 
missile systems. There are lessons we can learn from other missile 
systems that are already well into production like the Air Force and 
Navy fleet of ballistic missiles, the Patriot and Standard Missiles 
(SM) used for air threats, or Tomahawk missiles used in Strike Warfare. 
The Navy tests on average 35 Standard Missile 2 variants per year and 
11 Tomahawks of all types per year. These tests are done to assess the 
ability of these missiles to meet reliability numbers as defined in 
their Operational Requirements Documents (ORD). Although our missile 
requirements are not defined in an ORD, we can use the same type of 
considerations the Services used to define the right number to test 
each year.
    To attain a comprehensive evaluation of the (actual) operational 
reliability of our fleet of GBIs, we require a testing program that 
includes the random selection and firing of GBIs without any additional 
refurbishment [``as-is''], except for the addition of a telemetry 
package to assist with post-test analysis. There are numerous lessons 
that can be learned from this approach as the full effect of integrated 
flight dynamics would be assessed.
    In preparation for spiral development flight tests, there is 
certainly value in fully inspecting the test missiles and replacing 
worn or suspect parts before test firing them, with a full evaluation 
of the suspect components in a bench-top environment. Combining the 
approaches of as-is and repaired missile testing provides the 
warfighter with a better assessment of the true potential of the 
remaining GBIs in their silos to perform as required.
    Mr. Lamborn. General Renuart, with the Administration's policy 
shift to a new Phased, Adaptive Approach for Europe, there is an 
outstanding question as to the future of the 2-stage ground-based 
interceptor (GBI) that was planned for Poland. The 2-stage GBI is more 
mature than the SM-3 Block 2A and Block 2B interceptors that don't yet 
exist. A) General, do you believe we should continue to develop and 
test the 2-stage ground-based interceptor (for example, as a hedge 
against a possible Iranian break-out)? B) Has NORTHCOM studied options 
for deploying a 2-stage GBI in the United States to give another layer 
of defense to our homeland? C) Do you believe there should be a 
competition or clear criteria established for a down-select between the 
2-stage GBI and the SM-3 Block 2A and Block 2B interceptors which are 
planned to provide defense of Europe and the U.S. in the new Phased, 
Adaptive Approach? Right now, it would appear that the Department has 
put all its proverbial ``eggs'' in the SM-3 Block 2A and Block 2B 
``basket.''
    General Renuart.
    A. Yes, if the Iranian long-range missile threat develops more 
quickly than the current National Intelligence Estimate projections, 
then the deployment of 2-stage GBI missiles would provide a flexible 
approach in responding to this increased threat, a hedge as you stated. 
Under the auspices of the Ballistic Missile Defense Review (BMDR), 
USNORTHCOM has developed hedge plans within the phases of the Phased, 
Adaptive Approach to enable us to respond in time to counter an 
emerging threat, should the SM-3 development not meet our capability 
requirements or if the threat develops more quickly than we currently 
understand. The BMDR clearly states that further enhancements to our 
BMDS capabilities must be based on proven technology. A mix of 2- and 
3-stage interceptors falls in line with this guidance and provides 
proven technology to protect the homeland in the near and far term.
    B. Yes, our previous analysis identified that a 2-stage/3-stage mix 
of interceptor capabilities enhances our ability to defend the 
homeland. Under the guidance in the BMDR, we are continuing to evaluate 
and determine the right mixture(s) in order to enhance our ability to 
defend the homeland. The emerging capabilities discussed in the BMDR 
for the European Phased, Adaptive Approach (EPAA) certainly apply to 
defense of the homeland, and we are continuing to analyze all of those 
capabilities through our own efforts.
    C. It is our understanding that an Analysis of Alternatives (AoA) 
was conducted by the Missile Defense Agency (MDA) that included the 2-
stage GBI and the SM3 missile and the down select process indicated the 
SM3 was best suited for the EPAA. We would have to defer this issue to 
MDA to provide the analysis and details that went into both the AoA and 
down select decision.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
